<html>
<title> - OVERSIGHT OF THE ARMY CORPS OF ENGINEERS' MANAGEMENT OF THE ACT AND ACF RIVER BASINS</title>
<body><pre>[Senate Hearing 109-1070]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1070
 
OVERSIGHT OF THE ARMY CORPS OF ENGINEERS' MANAGEMENT OF THE ACT AND ACF 
                              RIVER BASINS 

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               __________

                    AUGUST 8, 2006--GAINESVILLE, GA

                               __________


  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               ----------

                       U.S. GOVERNMENT PRINTING OFFICE 

47-639 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 







               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            Joseph I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)








                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 8, 2006
                           OPENING STATEMENTS

Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     3
Deal, Hon. Nathan, U.S. Representative from the State of Georgia.     5
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     1

                               WITNESSES

Conway, Jack, chairman, Forsyth County Board of Commissioners, 
  Forsyth County, GA.............................................    21
    Prepared statement...........................................    70
Dunlap, Kit, president/CEO, Greater Hall Chamber of Commerce.....    23
    Prepared statement...........................................   113
Joseph, Jackie, president, The Lake Lanier Association, Inc......    25
    Prepared statement...........................................   204
Perdue, Sonny, Governor, State of Georgia........................     6
    Prepared statement...........................................    33
Walsh, Brigadier General Michael J., Commander, South Atlantic 
  Division, U.S. Army Corps of Engineers.........................    10
    Prepared statement...........................................    64

                          ADDITIONAL MATERIAL

Annual Report, 2005, Metropolitan North Georgia Water Planning 
  District, Protecting Water Resources: Elements of Success.....115-146
Brochure, Do It Yourself Household Water Assessment..............   147
Charts:
    ACF Projects and Drainage Basins.............................    68
    ACT Projects and Drainage Basins.............................    69
    Lanier Elevations in Past Drought Years and in 2006..........    59
    U.S. Drought Monitor, July 25, 2006..........................    66
Letters from:
    Bowen, Julian, chairman, Forsyth County Board of 
      Commissioners, April 22, 1997..............................    75
    Bush, Jeb, Governor, State of Florida, August 4, 2006........   315
    Chambliss, Hon. Saxby, U.S. Senator from the State of 
      Georgia:
        April 29, 2005...........................................   305
        October 12, 2005.........................................98,313
        December 14, 2005........................................   307
    Conway, Jack, chairman, Forsyth County Board of 
      Commissioners:
        November 25, 2003........................................    81
        September 23, 2005.......................................    95
        February 1, 2006.........................................   102
    Couch, Carol A., director, Georgia Department of Natural 
      Resources:
        May 5, 2006..............................................    36
        May 17, 2006.............................................    42
        June 1, 2006.............................................    46
        June 9, 2006.............................................    53
    Deal, Hon. Nathan, U.S. House of Representatives, 9th 
      District of Georgia, May 12, 1997..........................    77
    Franklin, Shirley, Mayor, City of Atlanta, April 7, 2006.....   286
    Isakson, Hon. Johnny, U.S. Senator from the State of Georgia:
        April 29, 2005...........................................   305
        June 28, 2005............................................   310
        October 12, 2005.........................................98,313
        December 14, 2005........................................   307
    Keyser, Colonel Robert B., District Engineer, Army Corps of 
      Engineers, May 10, 2004....................................    84
    Perdue, Sonny, Governor, State of Georgia, June 2, 2006......    50
    Perkins, Tim, director, Water and Sewer, June 29, 2004.......   111
    Reheis, Harold F., director, Georgia Department of Natural 
      Resources, March 28, 1997..................................    74
    Seder, Ronald E., chairman, Forsyth Bounty Board of 
      Commissioners, June 24, 1996...............................   109
    Taylor, Colonel Peter F., District Commander, Army Corps of 
      Engineers:
        May 15, 2006.............................................    39
        May 19, 2006.............................................    44
        June 12, 2006............................................    55
        June 21, 2006............................................    56
    Vogel, Colonel William S., District Engineer, Army Corps of 
      Engineers:
        March 15, 1996...........................................    72
        May 28, 1997.............................................    78
    Woodley, John Paul, Jr., Assistant Secretary of the Army 
      (Civil Works):
        April 26, 2005...........................................   312
        June 15, 2005............................................   311
        June 30, 2005............................................   308
        January 30, 2006.........................................   100
    Zeng, Wei, May 5, 2006.......................................    60
Paper, University of Florida, Extension, Institute of Food and 
  Agriculture Sciences: Water Wars: Water Allocation Law and the 
  Apalachicola-Chattahoochee-Flint River Basin...................288-304
Statement, Castille, Colleen M., secretary, Florida Department of 
  Environmental Protection.......................................219-285
Study, Lake Sidney Lanier, Economic Impact of Recreation.........153-203




OVERSIGHT OF THE ARMY CORPS OF ENGINEERS' MANAGEMENT OF THE ACT AND ACF 
                              RIVER BASINS

                              ----------                              


                        TUESDAY, AUGUST 8, 2006

                              U.S. Senate,
                 Committee on Environment and Public Works,
                            Gainesville, GA.

    The committee met, pursuant to notice, at 10 a.m., 
Riverside Military Academy, 2001 Riverside Drive, Gainesville, 
GA, Hon. Johnny Isakson presiding.
    Present: Senators Isakson and Chambliss.
    Also present: Representative Deal.

 OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. We will call this hearing to order. A 
couple of members of the media are in the audience.
    Member of the Media. I have a photographer, or I have one 
coming, and wanted to know if they could have access to the 
stage for the purpose of photographing the testimony.
    Senator Isakson. That is all right if they come up from 
these steps and veer right and there is a side thing here where 
they can slip back where they won't block anybody and they can 
take all the pictures that they want to.
    Second, for the benefit of the Governor and colleagues, 
Senator Chambliss, Congressman Deal, microphones are not self-
actuated. So you turn them on and off when you want to speak. 
That way, we won't pick up or interfere with each other.
    I want to particularly thank Colonel Guy Gardener, 
Riverside Academy, he is standing right over here. You all give 
him a big round of applause. This is a magnificent facility. We 
appreciate the opportunity to have this here.
    There is an old adage, behind every good man is a good 
woman, and I also want to thank Kate Maine.
    For the purposes of the audience, this is a hearing of the 
Senate Environment and Public Works Committee.
    I will make an opening statement of about 5 minutes 
followed by Senator Chambliss, who is next, and Congressman 
Deal. We'll go straight from there to the testimony of the 
government.
    We have three distinguished panels this morning. We look 
forward to your participation and thank the panelists in 
advance for coming.
    I welcome the U.S. Army Corps of Engineers management of 
the ACT and ACF River Basins, as well as the actions, their 
actions, as I said to you earlier.
    We have a very distinguished group of witnesses to discuss 
the topic at greater length, Forsyth, Dawson, Gwinnett, and, 
really all of the counties in Georgia, certainly, in the ACF 
Basin.
    Today we are conducting a congressional oversight of the 
corps, following their announcement in June of this year that 
the lake at the Buford Dam, the place in December 2005, was not 
properly calibrated, bringing it nearly 2 feet or over a half a 
meter higher than the actual level.
    Because of this, billions of gallons of water were released 
unnecessarily. I have heard from many of my constituents, and I 
should say our constituents from this area, of the numerous 
calls they had made to the board, trying to alert them to what 
was obviously the declining water level.
    I am looking forward to getting answers from General Walsh 
as to why this happened and what steps they are taking toward 
preventing it from happening again. I am also looking forward 
to hearing the answers on the related ACT/ACF River Basin 
issues.
    I stand by my belief that if the corps would go forward 
with the updated water control management of the two river 
basin systems, an update that is long overdue, many of these 
problems will be solved.
    In fact, currently the interoperational plan that was 
placed because the environmental species complaint, which was, 
in part, acting as an interim operational plan, but interim 
water control plan, it has been decades since the water control 
plan has been redone. It is--time is of the essence and I will 
see to it that it gets done.
    It is the fundamental foundation and an ultimate tristate 
water compact and an insurance for the people of our State and 
the States of Alabama and Florida as to the way in which the 
river will be managed.
    I want to particularly welcome Governor Sonny Perdue to the 
committee today. Governor Perdue has been a leader in our State 
on water issues and offers a unique perspective as the chief 
executive of Georgia.
    His testimony, which I have already read, will provide you 
a unique insight into how long and how hard the State, in 
concert with Congressman Deal, Senator Chambliss and myself and 
the other members have been working to bring about a resolution 
to this problem.
    I want to personally acknowledge and thank the Governor for 
his diligent, diligent effort on behalf of all those in the 
State of Georgia with access to their water.
    With that said, I'm going to cut the rest of my statement 
short, because hearing from those who are here to give 
testimony today are the ones we really want to hear from, but I 
have a few procedural motions that I need to make.
    First, given Governor Perdue's unique perspective and the 
fact that he has taken his time from a busy schedule to be 
here, I'm going to give him 15 minutes for his testimony, and 
all the rest of us will have 5 minutes.
    Second, I want the record to reflect that I'm bringing 
Senator Chambliss and Congressman Deal to serve as panelists on 
the Senate Committee on Environment and Public Works field 
hearing today.
    We look forward to the questions from all the members, we 
look forward to the answers we will receive from the corps, and 
we look forward to the participation of local residents here.
    It's now my pleasure to turn the microphone over to Senator 
Chambliss.

 OPENING STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM 
                      THE STATE OF GEORGIA

    Senator Chambliss. Well, thank you very much, Senator, and 
I appreciate very much the opportunity to be here today with so 
many folks who have come out to talk about an issue that is 
very emotional and very sensitive and, needless to say, 
extremely important to all of us for any number of reasons.
    First of all, I want to extend, again, our thanks to the 
Army Corps for hosting this outstanding facility here. I almost 
feel like I am in the military here when I walked out. What a 
great facility you have here.
    Again, I want to thank all of you for coming out today to 
discuss this extremely important issue of Georgia's water 
resources.
    There's not been an issue, and more now that I've been 
around Atlanta, as to the State's low levels of Georgia lakes.
    The purpose of today's hearing is to let our constituents 
hear firsthand for those responsible for operating the 
Apalachicola-Chattahoochee-Flint River Basin, fine men and 
women of the U.S. Army Corps of Engineers as to why the lake 
levels are as low as they currently are and why they simply 
can't refill them as many of us would like.
    The dog days of summer have traditionally been a time when 
our families try to beat the heat in any number of ways--
swimming and boating, keeping hydrated, or staying inside with 
the air conditioner cranked up.
    Although there are a variety of ways that you will keep 
cool throughout the summer's sweltering days, they are all 
connected by one common thing, and that is the necessity for 
water.
    Georgia's water resources are a precious commodity for 
allowing municipal drinking supply, to give us electricity for 
commerce, for irrigating crops and to sustain what had been at 
that time, as well as for recreation.
    So when folks notice a significant drop in the lake levels, 
that impedes their recreation plans or when they are informed 
that there are restrictions placed on their domestic use of 
water, like watering lawns or washing cars, and all to avoid 
drinking supply, they are likely concerned.
    Benjamin Franklin once noted when the well is dry, we know 
the word for water. I think our recent experiences with Lake 
Lanier have proven to be true although we didn't have to watch 
Lake Lanier drain completely in order to learn the lesson.
    The fact of the matter is that, the ACF River System is the 
life blood of the economy and the environment, and that's a 
major part of the Southeast; but right now, the system is out 
of balance.
    It is important that the operation of this river system 
balance economic and environmental interest, balance water 
quality and supply and environmental needs, and balance the 
very needs among Georgia, Florida, and Alabama so that fair 
decisions can be made about competing to get that drinking 
water in the upper Basin, agriculture and economic development 
in the middle Basin and important species in the lower Basin.
    I think this hearing today is very timely. We want to 
provide an opportunity, for those of you who rely on Lake 
Lanier for any number of reasons, to have the opportunity to 
hear directly from the Corps of Engineers about the management 
of Lake Lanier.
    It also provides us the opportunity to hear from you, the 
State Board Members, as to the important interests at stake in 
the proper management of this vital resource.
    I am eager to hear today from General Walsh with the Army 
Corps of Engineers, because the corps is responsible for 
operating a number of different reservoirs across the river 
systems.
    Normally, they conduct their operations under a water 
control plan, a plan that identifies the objectives for 
managing the system such as navigation, water supply, and 
recreation.
    The water control plan instructs the management of the flow 
of the river system for different identifying needs of that 
system.
    For instance, an updated water control manual would advise 
the corps as to whether or not Lake Lanier can store a greater 
amount of water supply for counties in the metro Atlanta area, 
or whether such higher storage in Lake Lanier is detrimental to 
the entire ACF system.
    There's not been an updated water control plan in the ACF 
in more than 50 years. That is really hard to believe. I 
believe the lack of a master control plan of the ACF plan is 
the root of a number of problems we have experienced with the 
operation of this system.
    I think it is the main reason there is so much imbalance 
with respect to the allocation of water during times of surplus 
and during times of drought.
    I think what all the State oversees is fairness, 
consistency and transparency in the operation of this system.
    What we don't want to see is one State using an individual 
law or regulation to gain an advantage over another State 
resulting in a temporary gain of that State.
    Unfortunately, although the Corps of Engineers is mandated 
by statute and by regulation and maintaining of the water 
control manuals due to the ongoing litigation between Georgia, 
Florida and Alabama over water resources, they have not done 
so.
    In January 2006, as a result of the corps approving, the 
legal impediments to control the legal control manuals for the 
ACT and the ACF Basins were eliminated with the settlement of 
that court case.
    After months passed and the process of updating manuals had 
not started, Senator Isakson and I sat down with the Secretary 
of the Army, Francis Harvey, and he informed us that the Corps 
of Engineers will start the process of updating the control 
manuals no later than January 2, 2007.
    I applaud his leadership in setting a firm date in moving 
forward with this process, because I do believe it's the right 
thing to do and the responsible thing to do. We need to assess 
all the right needs for the ACF system and then we can figure 
out an appropriate level of water needed to meet all of those 
needs.
    The main question I hope that will be answered today is, we 
see Lake Lanier is lower than it should be. Why can't we simply 
refill the lake?
    I think it would be helpful for General Walsh to put into 
context the recent operations of Lake Lanier. For instance, I 
know the corps is currently under a court order to release 
certain level amounts of water.
    However, I also note that the corps accidentally released 
an extra 22 billion gallons of water.
    It is not only important for all the folks here to get an 
estimation from the record from the corps as to how that extra 
22 billion gallons of water was released, but to also come away 
with an understanding of why they were releasing water in the 
first place.
    Where restrictions lie in the corps from doing things is 
important to smart management of the ACF river system, like 
updating the water control plan or simply raising our lake 
levels.
    I have here today a letter dated August 7, from the Hon. 
Shirley Franklin, the Mayor of Atlanta which, Mr. Chairman, I 
would like to insert into the record.
    [The referenced document follows on page 286.]
    Senator Isakson. Without objection.
    Senator Chambliss. What this letter says is, it reinforces 
that government officials and community leaders over a wide 
geographic area are indeed with this issue and are actively 
seeking solutions, and we truly are.
    She makes an excellent point that the interim operations 
plan is not a sustainable solution, and that we must move 
forward and find a long-term solution for operating the river 
system.
    Last, I just want to say to our first witness today, 
Governor Perdue, were it not for you and your persistence in 
trying to call your colleagues from Alabama and Florida 
together, we simply wouldn't be at the point where we even are 
today.
    These folks are not satisfied and we are not satisfied with 
where we are. But I want you all to understand that were it not 
for Governor Perdue for being as insistent as he has been, with 
not only the Corps of Engineers, but with the two Governors, 
which is where this issue ultimately has got to be resolved, 
that we simply wouldn't be where we are.
    The other two Governors, frankly, relied on filing lawsuits 
as opposed to sitting down at the table and trying to resolve 
this.
    Thank goodness we have prevailed in these lawsuits, but the 
leadership of Governor Perdue is critically important.
    Mr. Chairman, thank you, and I look forward to the 
testimony, and I look forward to hearing from our constituents 
on this matter today.
    Senator Isakson. Congressman Deal.

OPENING STATEMENT OF HON. NATHAN DEAL, U.S. REPRESENTATIVE FROM 
                      THE STATE OF GEORGIA

    Mr. Deal. Thank you.
    It's an honor to be here. Thank you for holding this 
hearing here in Gainesville in my congressional district and 
thank you also to Senator Chambliss also for being here on this 
panel today and thank you for inviting me to stay as well.
    I also would commend Colonel Gardner and the staff here at 
Riverside Military Academy for their hospitality and for 
allowing us to be the hosts of this meeting at this very 
gorgeous facility, something that I think our community is 
tremendously proud of. I know that you are as well, Colonel 
Gardner.
    I too would like to thank Governor Perdue for being here 
today.
    I do believe that it is his leadership and persistence on 
this issue, that it will become more clear as we hear his 
testimony, that it has been a real stabilizing force and an 
incentive for us to remove some of the impediments that have 
been there in the past, and hopefully reach a conclusion.
    Needless to say, Lake Lanier is important to this part of 
Georgia. It is estimated that it has about a $5 billion 
economic impact on our community and our State as a whole.
    High water levels for Lake Lanier, in our opinion, are not 
inconsistent with adequate water usage downstream. In fact, we 
think it may, in fact, compliment that as well.
    So this is a comprehensive hearing. It is nice to have the 
opportunity and public forum to hear from the Corps of 
Engineers as to the issues that they are confronted with.
    Hopefully, if there are legislative issues that need to be 
addressed, at this time I will be advised of those in the 
process of this hearing today.
    Needless to say, this is the time of year when, as Senator 
Chambliss pointed out, the lake is a vital recreational 
resource for many people in our State. With water levels as 
they are now, it is certainly a problem, to say the least.
    I want to thank all of those who have come to participate 
in this hearing and to listen to the testimony. I think it is 
important that everyone involved in the process know the 
magnitude of the interest of the people as a whole in this 
issue.
    Thank you again for allowing me to be a part of this panel 
and welcome to Gainesville and to Hall County.
    Senator Isakson. Thank you very much.
    It is now time for me to introduce our first panel. 
Governor Sonny Perdue, the Governor of the State of Georgia.
    Governor, you have been given the exception of having 15 
minutes.

   STATEMENT OF HON. SONNY PERDUE, GOVERNOR, STATE OF GEORGIA

    Mr. Perdue. Good morning.
    I would like to begin by thanking the Senate Committee on 
Environment and Public Works today chaired by Senator Johnny 
Isakson.
    I would also like to thank Senator Saxby Chambliss and 
Congressman Nathan Deal for their presence, their interest and 
their leadership on this issue in the first of hearings in 
Washington for pursuing the solutions to this dilemma.
    The issue of the U.S. Army Corps of Engineers management of 
the ACT and ACF river basins is both timely and significant. 
The rivers that make up these Basins are among the State of 
Georgia's most precious natural resources.
    Waters rising and flowing in Georgia are waters of the 
State of Georgia and the Federal reservoirs constructed on them 
should be operated by the corps to meet the vital needs of 
Georgia citizens, including water supply, waste assimilation, 
recreation and navigation, and support a wide variety of needs 
of the biological needs of a wide variety of species.
    In March of this year, the corps announced a new reservoir 
management plan for the ACF Basin including Lake Lanier, 
reservoir, called the Interim Operations Plan (IOP).
    The IOP was intended to support the needs of the endangered 
Gulf sturgeon during its spring spawn and the needs of two 
species of protected mussels in the summer.
    While the intention of the IOP may be good, the State of 
Georgia is concerned that it mandates the release far more 
water than is necessary for the protection of these species and 
depletes the water storage upon which people and wildlife, 
including the protected species at issue, depend. 
Unfortunately, the corps has largely dismissed Georgia's 
concerns.
    I'd like to give you a time now. On May 5, 2006, Dr. Carol 
Couch, director of Georgia's Environmental Protection Division, 
wrote a letter for the corps enclosing hydrologic data showing 
the corps' continued operations could draw down the Federal 
reservoirs in the ACF Basin in their lowest level in 50 years 
that could effectively empty them.
    On June 1, 2006, Dr. Couch sent a letter to the corps and 
the U.S. Fish and Wildlife Service (FWS) requesting specific 
changes to the IOP.
    On June 2, 2006, I wrote to the Secretary of the Army, 
Frances Harvey, sharing Georgia's concern that, ``unless the 
corps changes its operating protocols, the reservoirs and lakes 
in the system will be drawn down to their lowest level in 
recorded history.''
    Also on June 2, 2006, Dr. Couch sent a letter to Colonel 
Peter Taylor and to the Fish and Wildlife Service with an 
attached memorandum providing additional results of the 
simulation of the IOP using data and information received from 
the corps.
    On June 6, 2006, I personally met in my office with General 
Michael Walsh and Colonel Taylor to face-to-face express the 
concerns that we have expressed in writing.
    By June 9, 2006, the State received no material responses 
from the corps in response to its communication. Thus, on June 
9, 2006, Dr. Couch wrote the corps another letter demanding 
specific revisions to the IOP.
    On June 12, 2006, the corps responded by letter to Dr. 
Couch's June 1 and June 2 letters. The corps challenged what it 
believed to be certain of the assumptions underlying Georgia's 
simulations of the IOP, but did not provide data to allow 
Georgia to assess the validity of the corps' assertion or to 
fully evaluate the discrepancies between the corps' and 
Georgia's models.
    The corps repeatedly put off responding to our June 9, 2006 
letter that demanded changes to the IOP. After several requests 
for more time, the corps finally stated that it would not 
respond to the June 9, 2006 letter because of unidentified 
``concerns raised by the other parties to the litigation.''
    In fact, the corps did not respond to Dr. Couch's June 9 
letter until June 21, 2006.
    In the midst of all this, the corps admitted to releasing 
more than 22 billion gallons of water from Lake Lanier by 
mistake, at a time when the region was approaching what is 
traditionally known as the driest time of the year. By this 
mistake, they essentially created the effects of a ``manmade'' 
drought on top of a natural drought.
    The 22.5 billion gallons of water that the corps mistakenly 
released corresponds to 6.3 percent of Lake Lanier's 
conservation capacity, 22.5 percent at West Point's 
conservation capacity and 28.2 percent of Walter F. George's 
(Lake Eufaula) storage conservation.
    This year, 2006 is 1 of only 2 years in Lake Lanier's 
history when the lake levels fell, the period of January 
through May, which is normally the time of refill, even in 
drought years. The other year when this occurred was in 1986.
    Submitted with my testimony, there is a chart that shows 
the drop in Lake Lanier levels compared to lake levels 
experienced in the drought of 1999 to 2001.
    As you will see, this chart shows that Lake Lanier was able 
to rise in elevation for the same period, January 1 to June 1, 
even during the 1991 to 2001 drought, the most severe drought 
in the history for the ACF Basin.
    I think that should be 1999 to 2001. For example, Lake 
Lanier began in 2006 more than 5 feet higher than it had begun 
in 1999. But the lake levels now are more than 2\1/2\ feet 
lower than it was on August 3, 1999.
    For example, on January 1, 2006, Lanier elevation was 13 
feet higher than the January 1, 2001 level, yet last night's 
elevation was less than 1\1/2\ feet higher than at the same 
time in 2001.
    This unprecedented loss of storage with the perspective of 
what happened in the past droughts, is clearly the result of an 
Interim Operations Plan (which was not part of past reservoir 
operations), in particularly the magnitude of flow it calls for 
during the spawning season, March through May.
    The unfortunate actions by the corps' repeated lack of 
response to our concerns left Georgia with no alternative but 
to take legal action to protect our water resources.
    As you are aware, the State of Georgia filed complaint in 
the Northern District of Georgia to stop the corps' continued 
operating, according to the Interim Operations Plan. This case 
is pending.
    Litigation is never how I choose to deal with issues. As I 
explained earlier, we tried repeatedly to impress our concerns 
upon the corps. The corps, we determined was fairly, largely 
nonresponsive. The threat of the State of Georgia is urgent and 
the situation demands immediate action.
    We have challenged the IOP because the corps must allow the 
lakes to refill and recover the lost stored water.
    Common sense tells us that you cannot manage a system of 
reservoirs if you never store any water. The corps' Interim 
Operations Plan was adopted without any prior notice, without 
any public participation, without analysis of impact on 
authorized purpose for which the Federal reservoirs were 
constructed, without consideration of its impact on the water 
supply, security for the millions of people who rely on the 
Chattahoochee reservoir system for water supply, without 
consideration of its long-term sustainability or its long-term 
impact on federally protected species, and without 
consideration of alternatives.
    The result is an unbalanced plan that imposes a severe risk 
of substantial harm to the State of Georgia and its residents.
    In fact, the Interim Operations Plan is essentially a water 
control plan. A water control plan that was adopted by and 
taken only one factor in consideration, endangered species.
    Georgia has long advocated that the corps should update its 
master control plan for both the ACF and ACT Basins, which have 
been noted, have not been done in over 50 years.
    As a result, the corps is operating its complex systems 
without reliable or predictable operating rules tailored and 
current demands and conditions within the Basins.
    Indeed, the corps' own regulations provide that water 
control plans should be updated periodically in light of 
changing demands and other conditions.
    I don't think there is any question of over the last 50 
years, the ACF and ACT Basins in Georgia have changed 
dramatically.
    The Federal Government itself recognized the need for 
current plans. The Federal Emergency Management Agency (FEMA) 
is investing millions of dollars in updating the floodplain 
maps. This is in response to growth in Georgia and Alabama that 
has altered the flood characteristics of watersheds.
    The corps needs to incorporate these altered flood 
characteristics into updated operation manuals to ensure 
protection of life and property in both States.
    Further, inefficient, inaccurate, or unpredictable 
operation of the ACF and ACT systems results in growing 
uncertainty about the supply of water for more than half of 
Georgia's citizens and for facilities such as the Farley 
Nuclear Plant and other powerplants.
    The water control plans also should be updated as part of 
implementing the 2003 settlement reached by the corps, Georgia, 
and other parties that will help ensure that metropolitan North 
Georgia's water needs for the next decade will be met.
    The failure of the corps to update the water control plan 
is also affecting a stated purpose of lakes in the Basin, 
recreation. West Point officials have asked the corps to raise 
the level of the lake by 2 feet in the winter when water is 
plentiful to accommodate recreational needs that have a 
significant impact on the region's economy. But the corps 
officials have said that they have to adhere to elevation 
levels in the IOP.
    What does all this mean? The corps is providing flows for 
endangered sturgeon and mussels under an IOP that was developed 
without studying its full effects and without properly updating 
the corps' grossly outdated water control plans.
    The corps' performance under the IOP this year demonstrates 
that it is not a sustainable plan. With a continuation of this 
dry year, Lake Lanier, Lake Eufaula, West Point and Seminole 
will all drop to levels that will put at risk water supply, 
water quality, endangered species and other wildlife, and will 
be devastating to recreational boating and fishing that support 
the local economies.
    In closing, I would like to say that I cannot believe that 
Congress passed the Endangered Species Act with the intention 
of providing substantially more protection for the species than 
for human beings.
    The corps can provide both the needs for the endangered 
species and the needs of humans upstream if it operates wisely 
and is guided by sound science and good planning.
    For example, I do not believe that Congress intended that 
the corps provide the species with more water than even the 
natural environment would support, particularly when it comes 
at such a great cost upstream.
    Even at a flow of 5,000 cubic feet per second, which the 
corps IOP calls for, and under which we operate today, mussels 
are getting more water now than they would if no dam is built 
and no reservoirs created.
    It is a time, gentlemen, for common sense to prevail on 
this issue. That is what we are asking for from the corps when 
they update the 50-year-old water control plans. That is what 
we seek through our request to stop the release of water 
greater than nature would provide.
    That is the approach that I want to take when I sit down 
with my colleagues and neighbors to the west, Governor Riley on 
August 14.
    Once again, I want to thank you all for the opportunity to 
provide this information and this testimony and thank you very 
much for your time today.
    Senator Isakson. Obviously, Governor, you did well. I want 
to thank you for the detailed presentation and all the letters 
from you and Mr. Couch to the corps as well as all the letters 
from the corps to you as well as the charts that is testimony 
to and will be made a part of this permanent record.
    On behalf of Senator Chambliss and Congressman Deal and 
myself, thank you for your valuable time. I appreciate it.
    Mr. Perdue. Thank you all.
    Senator Isakson. Now it is my pleasure to ask Brigadier 
General Michael J. Walsh, the Commander of the South Atlantic 
Division of the U.S. Army Corps of Engineers, to come forward 
for your testimony.
    General, we want to welcome you to this hearing today and 
thank you for your participation; and we look forward to your 
testimony of about 5 minutes and we will do questions and 
answers after, with your permission.

  STATEMENT OF BRIGADIER GENERAL MICHAEL J. WALSH, COMMANDER, 
     SOUTH ATLANTIC DIVISION, U.S. ARMY CORPS OF ENGINEERS

    Mr. Walsh. Thank you. I would like to thank you for my 
invitation to attend.
    Members of Congress and distinguished guests, I am 
Brigadier General Michael J. Walsh, Division Commander, South 
Atlantic Division, U.S. Army Corps of Engineers.
    Thank you for the opportunity to provide this statement 
before you today concerning the corps' operations and 
management of the Alabama-Coosa Tallapoosa River Basin 
encompassing parts of Georgia, and Alabama and the 
Apalachicola-Chattahoochee-Flint River Basins encompassing 
parts of Alabama, Florida and Georgia. The U.S. Army Corps of 
Engineers practices the principle of openness.
    We strive to maintain transparency in all of our 
operations, providing all of our publics with as much data as 
possible via our Internet, sharing of information with State 
and Federal agencies, and through the media concerning our 
operations and management of this system.
    I would like to divide my statement into three parts. 
Normal management, support for the Endangered Species Act and 
the gauge calibration error at Lake Lanier.
    Normal management for the Alabama-Coosa-Tallapoosa River 
projects is multipurpose providing for flood control, 
hydropower navigation, water quality, recreation and fish and 
wildlife conservation.
    The system has five corps projects and 10 Alabama Power 
Company dams. The corps projects consist of two major storage 
projects, Allatoona and Carters in Georgia at the upper end of 
the Basin and three run-of-the-river projects at the lower end 
of the Basin in Alabama.
    The Alabama Power projects are located on the Coosa and 
Tallapoosa Rivers and are operated in conjunction with the 
corps' projects and provide a minimum 7-day average flow in the 
system. The corps has flood control oversight of the Alabama 
Power projects.
    The ACT Basin has experienced the same drought conditions 
as have other places in the Southeast. The two upper most 
projects, Allatoona and Carters are experiencing inflows 
averaging 30 percent of normal. Allatoona is currently 6.5 feet 
below normal summer pool and Carters is 10 feet below normal.
    Releases from Allatoona are being kept to a minimum with 
only 2 hours of hydropower generation a day, plus a continuous 
240 cubic feet per second release for water quality purposes.
    Carters, which is a pump back hydropower generating 
system--is operating in the pump back mode only.
    At the lower end of the system, the Alabama River, depths 
are at 6 feet below project depth in support of navigation.
    The only releases occurring at the corps projects are 
minimum flows coming from the upstream Alabama Power projects 
and the Alabama River situation, due to the drought, has caused 
one major industry to modify its water intakes to remain 
operational. Now the Apalachicola-Chattahoochee-Flint Rivers 
project (ACF) is also a multipurpose project providing flood 
control, hydropower, navigation, water supply, water quality, 
recreation, fish and wildlife conservation.
    The Federal projects on the Basin system begin with Lake 
Sidney Lanier at the headwaters--West Point Lake, Lake Walter 
F. George, George W. Andrews, and Lake Seminole at the lower 
end of the Basin.
    There are several lakes with hydropower facilities operated 
by private and public utilities along the system as well.
    Under normal circumstances, the corps operates and manages 
these reservoirs to meet all project purposes in accordance 
with the draft water management plans developed in the 1980s.
    These plans established zones of water levels that trigger 
actions when these levels are reached.
    This management has proven to be successful in meeting all 
those project's purposes.
    It is primarily when drought hits the system that issues 
begin to arise. The corps continues to operate and manage the 
system based on the above-mentioned plan.
    This calls for balancing the various reservoirs with 
available water to keep them in the same action zones. These 
zones have been developed to meet as many project purposes as 
possible with dwindling water availability during a drought.
    As conditions worsen during times of drought, some project 
purposes become a higher priority. These priorities include 
water supply, water quality, hydropower and fish and wildlife 
conservation.
    Fortunately, we are often able to simultaneously meet 
several of these needs with one action. For example, water 
released for water quality can also be run through a generator 
to produce hydropower.
    Like many of these systems operated and managed in the 
Southeast, along with most in the Nation, this river basin 
system is in a drought.
    The National Weather Service Drought Monitor shows North 
Georgia is in a moderate drought, and as you move southward, it 
is characterized as a severe drought.
    We operate and manage this Basin as a system; when the 
lower Basin receives less inflow, we must augment flows from 
stored water to maintain balance.
    The next part is the Endangered Species Act. The corps and 
the U.S. Fish and Wildlife Service have been in consultation 
since 2000, the year 2000, concerning various mussel species, 
and more recently, the Gulf Sturgeon, which all fall under the 
protection of the Endangered Species Act.
    Together, we have developed an interim operations plan to 
provide adequate water from the system to protect and enhance 
the habitat of these species. During normal conditions, these 
needs have been met through routine operations and maintenance.
    As we have encountered--as we have entered the drought 
period, management for those species has become more difficult.
    From March through late June, our water flow regimes have 
been in accordance with our Interim Operations Plan (IOP), that 
is subject to the Formal Section 7 Consultation with the U.S. 
Fish and Wildlife Service.
    As part of the litigation actions, the Court ordered 
specific flows in the late June and early July time period.
    The States and other parties to the litigation actions, the 
Court ordered specific flows again in late June and early July.
    The States and other parties to the litigation then agreed 
to a flow regime that took us through late July.
    Today, we are once again operating in accordance with our 
Interim Operations Plan, the IOP. The formal consultation with 
U.S. Fish and Wildlife Service on the IOP is ongoing. The 
biological opinion from the U.S. Fish and Wildlife Service, as 
a result of the formal consultation process, is due to me on 
September 5, 2006.
    Last, on the gauge calibration error, on the June 16 of 
this year, we discovered that we had a gauge calibration error 
at Lake Lanier. The error led us to release additional water 
that would not normally have been released during that time 
frame.
    In December 2005, during a routine maintenance of that 
gauge, it was discovered that certain components had been worn.
    New parts were ordered and installed, to include a device 
called a selsyn. A selsyn device is an encoder that reads the 
mechanical data provided by the float via the pulley. It 
converts the mechanical data to electronic data which is then 
sent to the powerhouse that is indicating the lake levels.
    As part of the installation, a scaling factor had to be 
programmed into the selsyn, and as we put that factor in, we 
called the manufacturer who recommended the scaling factor.
    Unfortunately, we were not clear in our communications with 
the manufacturer in that we did not replace the pulley that is 
attached to the selsyn. The manufacturer had assumed that we 
replaced both the selsyn and the pulleys and provided a scaling 
factor for both systems.
    The result was that we inputted a scaling factor that was 
not appropriate for the existing pulley with the new selsyn.
    Between the time of installation and mid-April of this 
year, levels at Lake Lanier remained relatively stable and no 
error was detected during those time periods. Beginning in mid-
April, we started to make water releases for downstream needs 
in accordance with the IOP.
    The calibration error led us to believe we had a higher 
pool level than actually existed, indicating a greater inflow 
into the lake than was actually occurring. We were operating 
under the IOP, which required us to essentially release 100 
percent of Basin inflows to mimic a run of the river flow for 
the entire Basin.
    As the gauge data was incorrect, we were releasing more 
water than was actually entering the lake by approximately half 
an inch per day. Consistent with our policy of openness about 
our operations, we informed congressional interests, 
stakeholders and the general public as soon as we learned of 
this problem.
    We have corrected the gauge error and have confirmed the 
accuracy of all of our gauges, not only on this system, but on 
all the systems in the Southeast that are under my 
jurisdiction.
    In addition, we have installed redundant systems, redundant 
gauges on all the projects, again, in my area of responsibility 
and have updated procedures to verify their accuracy.
    In summary, I'd like to thank you for the opportunity to 
update you on the management of the ACF River project and I 
want to assure you the corps is committed to working with all 
stakeholders in the Basin to provide the best management and 
operations for the lake.
    I am hopeful the current mediation process that is taking 
place among the three States and the Army will produce a 
framework to bring mutual protection and balance to this 
precious resource.
    Senator Isakson. General Walsh, thank you very much for 
your testimony and your service to our country.
    I will start the questioning and then go to Senator 
Chambliss, then return to Congressman Deal and then we will 
spend 5 minutes on questions. Whoever wants to talk, be sure 
and do it as well.
    I want to thank Nathan Deal for the outstanding job that he 
did on the 49 States in the House, about 6 weeks ago when he 
stopped and attempted to amend the budget and undo the water 
control plan.
    I want to thank Senator Chambliss for his honorable 
intention to do the same thing on the actions that we have on 
the Senate floor.
    I mentioned that so General Walsh knows that I know he has 
been somewhat of a proverbial ping-pong ball.
    However, I think we are in a climate where we are willing 
to do what we can for reaching some realistic agreements.
    To that end, Senator Chambliss and I have talked to 
Secretary Harvey in my office, and I am interested in knowing 
about the water control plan. Secretary Harvey informed Senator 
Chambliss and myself that we have a January 2 target date to 
begin the water control plan, and I want to know if that is 
still on target and still on date.
    General Walsh. Yes, sir, we are still on target with the 
plan to start January 2.
    Senator Isakson. Do you think that the statement that 
Governor Perdue made that the Interim Operations would be 
accurate for a water control plan, would that be an accurate 
statement?
    General Walsh. No, sir.
    Senator Isakson. Then would you tell us why you don't think 
that would be an accurate statement.
    General Walsh. The water control plan that we put together 
at the IOP is down at Walter F. George, which is at one 
particular project. It does affect the entire drainage system, 
but it is one particular project.
    The water control manual that Secretary Harvey is talking 
about is something that will control the whole basin.
    Senator Isakson. But it would be true that if you had a 
plan for that particular lake downstream that maintain levels 
that it would affect the upstream levels of the river, would it 
not?
    General Walsh. That's correct, it would.
    Senator Isakson. The reason is, I just want to make the 
point for the audiences' benefit, and I think we have a very 
knowledgeable audience here--but in the absence of updating the 
water control plan, we're going to continue to have our hands 
tied and not have the best data that we need to make the right 
decisions; would that be correct?
    General Walsh. That's correct. We do need to update the 
water control manuals.
    Senator Isakson. In your statement, you said you divide 
your speech into three parts, and the first was normal 
management. You described your job as managing multipurposes 
for the waters in the lake.
    In abnormal times, and I think we are in a moderate drought 
now and in a severe drought for testimony, are those multiple 
purposes prioritized in terms.
    General Walsh. They are prioritized, as I mentioned in my 
presentation to the water supply and the water quality, and 
different species, Fish and Wildlife Conservation.
    Senator Isakson. Water supply and water quality is as 
tremendously important to the human nature and human beings 
and, of course, the environmental species as referred in the 
Act of Congress passed for the protection of the environment of 
the species; is that correct?
    General Walsh. That's correct, sir.
    Senator Isakson. I believe there are currently four pending 
permit applications for this area. Is that correct?
    General Walsh. I believe so. That's correct.
    Senator Isakson. Would you give me a statement as to the 
status of those.
    General Walsh. Well, there are four requests, one is from 
Forsyth County requesting a pipe line easement to withdraw 
water out of Lake Lanier. We have transmitted that request to 
the mediation crew, to the people from the three States, and 
the Army to review that particular request.
    Right now, Forsyth County does not have a water withdrawal 
permit for Lake Lanier. The city of Cumming also has an 
easement to take additional water out of Lake Lanier, and we 
passed that also to the mediation team to see how we can work 
from that perspective.
    Gwinnett County does have a waste water treatment outfall 
and diffuser at Lake Lanier. Again, that one is being--I 
believe that one, they are continuing to see if they can get a 
Georgia permit.
    At the conclusion of that, if they do get the permit, they 
will be looking at going through the regulatory requirements of 
404 and section 10.
    The last item was the city of Gainesville is looking to 
replace and upgrade the waste water treatment pipeline and the 
outfall diffuser again at Lake Lanier, and that is going 
through a document review as well.
    Senator Isakson. Thank you very much. My time is up, and I 
want to end it by letting the audience know that the General is 
going to Iraq, I believe, next month, is that correct?
    General Walsh. Yes, sir.
    Senator Isakson. We wish you the best and we thank you for 
your time. We hope you will inform your successor of the 
importance of the Lake Lanier and Chattahoochee Water Basin in 
regards to water control.
    Senator Chambliss.
    Senator Chambliss. I just got back from Iraq, as a matter 
of fact, last week or so and you can go over there.
    Senator Isakson. Yes, sir.
    Senator Chambliss. That reminds me of the fact that the 
Army Corps of Engineers is just as much a part of winning the 
war on water control as what we have for Fort Stewart.
    You have given us that reminder here today, but let me just 
say that this statement made in the speech and the fact that 22 
billion gallons of water were released, if that kind of mistake 
had been made on the battlefield, it would cost American lives.
    That is how serious, I think in terms of this issue, it is. 
There was simply no excuse for that and I hope appropriate 
actions have been taken as if it were a battlefield situation--
any comments you want to make?
    General Walsh. Yes, sir. As soon as we noted the error, as 
I mentioned in my statement, we contacted all the public 
interests, the Governor's office, certainly the Senators and 
Congressmen in the area of the corps.
    From there, I was concerned that we did not have redundant 
systems on Lake Lanier water levels, and I was quite concerned 
with why we didn't have redundant systems on such a precious 
resource.
    I found out all my facilities in the Southeast, we didn't 
have redundant systems. So I ordered redundant systems on each 
one of our lakes.
    Senator Chambliss. So going forward, what can we anticipate 
if something like this ever happened again? What will happen to 
the system?
    General Walsh. Well, I think at Lake Lanier, we now have 
three systems in place, one the selsyn system that has now been 
recalibrated, we have the requirement for the ``lowboard'' to 
do a hand check to drop the float line down the pipe, that is 
twice a week.
    They have also put a scaling device, a measuring device 
outside Buford Dam so that the public, as they drive by, can 
look at it themselves.
    Senator Chambliss. Now everybody who is in the audience 
today and all of us here have seen what has happened to the 
level of Lake Lanier over the last several months.
    We also know that there has been at times some rainfall 
that has occurred, but the level of the lake continues to go 
down. I hope there are reasons that cause that.
    But why can't we just stop the flow out of Lake Lanier 
today, because of this mistake that has been made, until it 
builds back up at 2 feet, that was inadvertently let out of the 
lake by mistake.
    What's the key thing to do?
    General Walsh. So the other requirements that are needed at 
Lake Lanier and downstream, we need to meet those requirements 
for water quality as well as for species.
    Senator Chambliss. Well, you had said that the issue is not 
as commonplace or not as serious as Lake George, Lake Lanier 
and Lake Sidney. Why can't you make up for that mistake in some 
manner in Lake Lanier?
    General Walsh. I would like to say I'd be able to do that, 
but at this point, the way we are right now in the drought, we 
need to look at the system as a management system and make sure 
we are putting all the lakes in the same zones.
    As I mentioned in my comments, we do manage the lakes in 
zones and we try to keep all three lakes in Zone 3 right now.
    Senator Chambliss. As I understand it, and the way it was 
explained to us is that, we have a need for process, which is 
the first stage of moving to update the manual; that is 
underway; is that correct?
    General Walsh. No, sir. We will start the process for 
updating the water control manuals on January 2.
    Senator Chambliss. But it was my understanding that a month 
ago when you started the initial steps underneath the process, 
that is separate from updating the water control manual.
    General Walsh. We have started a process in accordance with 
the court order for us to move forward with the settlement 
agreement.
    Senator Chambliss. Now, the water control manuals will give 
us the timeline; when that will be completed?
    General Walsh. It will take 2 years for us to finish, 
December 2008.
    Senator Chambliss. Are there any impediments that might 
stand in the way of the Army Corps of Engineers of completing 
this process during that period of time?
    General Walsh. At this point, it is just assurance that we 
have appropriated funds to move forward.
    Senator Chambliss. So there are no other legal impediments 
that might----
    General Walsh. At this point, we have completed all the 
legal actions, but I was informed yesterday that Florida has 
started another legal action yesterday on the Interim Operating 
Plan.
    So as of right now, there is nothing that will prevent us 
from moving forward on January 2.
    Senator Chambliss. Thank you, Mr. Chairman.
    Senator Isakson. Congressman Deal.
    Mr. Deal. Gentlemen, I do want to thank you for your 
service from the past, present and future. I say that because 
some of my questions may not seem like I appreciate you, but I 
do.
    First of all, what is the calibration error of 22 billion 
gallons translating to in terms of the lake level in Lake 
Lanier?
    General Walsh. It is 1.950.
    Mr. Deal. I heard you give the lake levels for Carters Lake 
and Lake Allatoona, which are part of the ACT Basin. I did not 
hear you give the remaining lake levels in Alabama. Can you 
tell us how far below normal pool they are?
    Rather than having you look for it, if you can't find it, 
would you supply that to us? In general, do you know whether 
the lake levels are appropriately below the lake levels like we 
have here?
    General Walsh. Yes, sir. I will present that for the 
record, but yes.
    Mr. Deal. All right. Let's talk about the lake levels then 
within the ACF. Lanier is what is now below level?
    General Walsh. It is about 7 feet.
    Mr. Deal. Seven feet. What about West Point?
    General Walsh. I don't have that with me.
    Mr. Deal. What about Seminole?
    General Walsh. I don't believe I have that.
    Mr. Deal. What about Lake Seminole?
    General Walsh. Let me just say that all of these are on our 
Web site, I looked at them yesterday. It does tell you exactly 
what they are.
    Mr. Deal. Again in your testimony, you started out by 
saying, and you used the words transparency and openness in 
your process.
    Yet as I understand it, the Interim Operating Plan was 
adopted without any external input in the process; am I 
correct?
    General Walsh. We had been working in our operating plan 
since 2000 and have been gathering data on the endangered 
species in Florida and sharing that with the U.S. Fish and 
Wildlife Service and others.
    So the Interim Operating Plan was an upgraded plan and it 
had been upgraded since then.
    Mr. Deal. So we consulted the endangered species folks, but 
we didn't consult the people, such as the Governor of Georgia. 
Is that what you are saying?
    General Walsh. The Interim Operating Plan is the way we had 
been operating since year 2000, so I'm not sure where you're 
going.
    Mr. Deal. Did the IOP take into consideration the 
possibility of drought?
    General Walsh. Yes.
    Mr. Deal. To what extent, what did you anticipate the IOP 
would be, the drought situation would be here in Georgia for 
this time of year?
    General Walsh. When the water flow--when the inflows get 
into our lake into a certain level in that it doesn't bring 
enough water in, we reduce the amount of flows that leave the 
Walter F. George based on inflows.
    Whatever comes into the Basin gets released from the Basin 
until we get to the area of 5,000 cubic feet per second, and 
that's where we stay for the endangered species.
    So we do take into account the drought including up to the 
5,000 cubic feet.
    Mr. Deal. But 5,000 cubic feet per minute is more than 
mother nature would provide right now including endangered 
species, is it not?
    General Walsh. That's correct, there is less water coming 
into the Basin now than the 5,000 cubic feet per second. The 
additional water is coming from that water that is stored in 
the Basin.
    Mr. Deal. That is Lake Lanier.
    General Walsh. Lake Lanier, West Point and Walter F. 
George.
    Mr. Deal. The court order levels you mentioned, are they 
Court ordered levels above 5,000 or below that and how do they 
reconcile with that figure?
    General Walsh. The court originally ordered us to release 
more than 5,000 cubic feet per second and about 6,000 cubic 
feet per second.
    When we went back to see the judge after that time period 
had expired, they couldn't agree what a new release would be 
and the judge fell back on our original operating plan of 5,000 
cubic feet per second.
    Mr. Deal. Thank you, Mr. Chairman.
    Senator Isakson. In light of the fact that I will give 
Congressman Deal an extra 2 minutes, this is his district and 
his lake.
    Mr. Deal. Thank you. You know, just common sense, as the 
Governor said in his opening statement, has to play a part in 
all of this.
    The levels that we are now experiencing, based on the 
Governor's testimony, using the correlation of the drought from 
1999 to 2000, where we were in the true drought period for a 
sustained period during that time.
    General Walsh. There have been five droughts as of this 
date, five droughts that Lake Lanier has been at its level.
    Mr. Deal. But we had a more severe drought situation, as 
the Governor pointed out during that 1999 to 2001 time frame, 
and yet, we did not experience the same drops in lake level. I 
don't think the calibration error accounts for all of that 
difference.
    What is the other difference if we had gotten more water 
during this current period of time than we did in the drought 
period of time, 1999 to 2001, what accounts for the difference?
    General Walsh. I don't know the answer to that, but it is 
about 2 feet due to the error, probably another 2 feet for 
conservation of endangered species. The additional 3 feet, I'm 
not sure I know the answer to that.
    Mr. Deal. Well, the presume necessity for endangered 
species, and I say presumed because your IOP is a presumed 
level of 5,000 cubic feet, was that, based just on an 
assumption that that is what they had to have.
    You know, not to be totally facetious, but we have a grand 
aquarium here in Atlanta, GA, and if those 12 sturgeon need 
some water, we can find a place to put them there.
    The 5,000 cubic was based on a scientific analysis of what 
the mussels and the sturgeon need; is that where it came from?
    General Walsh. We were using the best scientific data that 
was available.
    Mr. Deal. Thank you, Mr. Chairman. Let's continue.
    Senator Isakson. Let's just follow up.
    Senator Chambliss. Talking about these mussels, you said 
something when I went on the lake. I walked out of my backyard 
yesterday and there were a bunch of mussels laying around.
    Now, the point I wanted to make is, there are folks in this 
part of the Basin or this part of the region that have concerns 
about species also that may be endangered.
    At one point in time, we were down to a 113-day supply of 
water. Thank goodness the Lord came in and gave us a little bit 
of wine and some cheese with it.
    Is there any plan to look for species problems in other 
parts of the Basin or if somebody finds the sturgeons laying 
out there and it creates a problem during the middle of this, 
it is kind of interesting, but we happen to be in a lawsuit and 
we have to refill Lake Lanier and all of a sudden Florida has 
found these sturgeons down there, is there a plan that looks 
for species----
    General Walsh. The U.S. Fish and Wildlife Service keeps an 
eye on endangered species to work with and in support of those.
    Senator Chambliss. Last, I want to go back to this, but I 
want these folks to understand exactly this process that we are 
going through.
    There are actually two different processes, as I understand 
it. One of the main processes has to do with the settlement of 
the lawsuit of the State of Georgia. That is the process that 
is underway right now; is that correct?
    General Walsh. That's correct.
    Senator Chambliss. Now, that process is separate from the 
unique process that will be done and part of the updated water 
bans; is that right?
    General Walsh. That's right.
    Senator Chambliss. These two, you said it would take an 
approximate 2-year period of time. Is there any way, in the 
appropriation of funding, that we can speed up that process as 
far as a 2-year plan to----
    General Walsh. I think the 2-year plan is an aggressive 
plan with whatever funding that we have lined up before.
    As you may recall, we have been working this process for 
the past 15 years through the contacts and other processes, so 
I think 2 years is a fairly aggressive approach.
    Senator Chambliss. During that period of time, the 
potential to have Lake Lanier back to a level that is a 
reasonable level for recreation, as well as for other purposes. 
This is done through one of two ways, if the Lord sends us 
enough water, but also, if the States of Alabama, Georgia and 
Florida come to an agreement on all of the issues relative to 
the drawn out water from the ACT ACL, that agreement could also 
provide the method by which Lake Lanier will rise up to a more 
reasonable level; is that correct?
    General Walsh. Yes, sir. If the three Governors agree on 
water allocations----
    Senator Chambliss. You are here representing the corps and 
you are a brave man to be here. You may have a need for it 
here. We appreciate the work that you do.
    We don't always agree with you and that is what makes us a 
great country that we are. This is and you know it is a very 
sensitive and very emotional issue, like Senator Isakson said, 
and I know that you will impress on your successor--not just 
the folks here today, but to all the folks in Florida, in 
Georgia and Alabama--it is important that we get it right. 
Thank you very much.
    Senator Isakson. General, I have one last question here.
    The question I asked you regarding the four permits, for 
Dawson, Forsyth, city of Gainesville and Gwinnett, did I 
understand you to say that the corps had signed off on them and 
submitted them to mediators for their sign-off, or shall we 
submit them to the mediators and then you deal with them?
    General Walsh. We have not signed off, we just submitted it 
to the mediators for litigation.
    Senator Isakson. Is there a timeline or a deadline for them 
to respond to you?
    General Walsh. No, sir. It is a mediation process, the 
judge will determine how much time that is.
    Senator Isakson. We sure appreciate you being here, and 
best of luck to you and God bless.
    General Walsh. Thank you.
    Senator Isakson. Let me now call our next group of people--
Jack Conway, Kit Dunlap and Jackie Joseph.
    The lights you see in these little boxes, the green light 
means that you have 5 minutes; the yellow light means you have 
1 minute left; and the red light means you are supposed to 
stop, because it has already timed out.
    With that said, Mr. Conway.

  STATEMENT OF JACK CONWAY, CHAIRMAN, FORSYTH COUNTY BOARD OF 
               COMMISSIONERS, FORSYTH COUNTY, GA

    Mr. Conway. Mr. Chairman, thank you for the opportunity to 
be here, Senator Chambliss, Representative Deal.
    On behalf of Forsyth County, the Forsyth County Board of 
Commissioners, and all Forsyth County citizens, I want to thank 
this honorable committee for providing me this opportunity to 
testify regarding Forsyth County's experience and interaction 
with the U.S. Army Corps of Engineers and its management of the 
ACT and ACF River Basins, specifically, Lake Lanier.
    At the outset, I must respectfully advise that Forsyth 
County's experience with the corps and its management and 
stewardship over Lake Lanier has been at best frustrating and 
at worst exasperating.
    Forsyth County has been, and remains, discouraged and 
disappointed by the endless layers of bureaucracy, politics, 
and all the red tape that seem to control the corps, and that 
makes it almost impossible to receive a straight or even 
consistent answer to even the most mundane of questions.
    Throughout my tenure as chairman, one of my chief goals has 
been to ensure that Forsyth County has sufficient water 
availability to satisfy both the present and long-term demands 
of its citizens.
    That effort has necessarily generated multiple discussions, 
meetings, correspondence and telephone calls with corps 
personnel.
    The only consistency theme that has permeated these 
repeated encounters with corps' personnel is that the county's 
overtures and initiatives are systematically rebuffed.
    Although the county's request to the corps for its own 
water intake began in the mid-1970s and was renewed in earnest 
in the mid-1990s, due to time constraints, I will relate only 
my personal experiences beginning in 2003 to demonstrate the 
county's inability to obtain cooperation with the corps.
    While the county was and remains mindful that the so-called 
``water wars'' had been ongoing and that this litigation has 
impacted the corps' discretion in issuing water withdrawals, 
the corps' interpretation of the 1992 Memorandum of Agreement 
between Georgia, Florida and Alabama, has been a moving target.
    On November 23, 2003, I wrote Colonel Robert Keyser at the 
corps requesting permission to begin construction of a second 
order intake into Lake Lanier. I emphasized that the county was 
not seeking any additional water allocation, but simply 
requested an approval to construct the vitally needed water 
intake structure.
    On May 10, 2004, Colonel Keyser rejected my request, 
stating that Forsyth County did not have a ``holdover water 
supply contract.''
    Colonel Keyser also noted that an injunction entered into 
by the District Court in Alabama further bound its hands.
    On March 25, 2005, the corps tendered a ``Notice of 
Proposed Actions'' to the Alabama Federal District Court 
stating that Forsyth County's request for an easement into Lake 
Lanier cannot be considered because approval would require a 
new withdrawal contract and is therefore enjoined.
    On April 11, 2005, I attended a meeting with Congressman 
Nathan Deal and corps officials.
    At that meeting, I requested that the Corp consider 
granting an intake easement to the city of Cumming, with 
Forsyth County possibly funding the construction costs.
    Approximately 6 weeks later, in a telephone conversation 
with Colonel Taylor, I was advised that all ``holdover'' 
contracts had expired, and an intake easement into the city of 
Cumming was not possible.
    On September 19, 2005, the injunction that served as the 
latest basis by the corps for not cooperating with Forsyth 
County was lifted.
    On September 23, 2005, I again wrote the corps requesting 
simply an easement across corps property for purposes of 
commencing construction of a water intake into Lake Lanier.
    On October 13, 2005, Georgia's Senatorial delegation 
delivered correspondence to Deputy Assistant Secretary of the 
Army, John Woodley, clarifying their understanding that the 
corps would get to work on the various requests for Gwinnett, 
Cherokee, and Forsyth counties.
    Secretary Woodley responded to you on January 30 that he 
did intend to begin taking all necessary Federal action.
    On February 1, 2006, I again delivered correspondence to 
the corps requesting that the corps immediately ``make good'' 
on its commitment to begin taking action on Forsyth County's 
easement request.
    In a telephone conversation following that letter, corps 
officials declared that in spite of the assurances provided to 
our Senatorial delegation, the corps refused to grant Forsyth 
County an easement because the county did not have a 
``holdover'' water storage contract.
    In the spring 2006, the corps advised that the city of 
Cumming should make a request for an intake and that the city 
and county could then enter into an intergovernmental agreement 
regarding intake operation.
    When asked whether the corps would place its proposal in 
writing, the corps advised it would not.
    The latest word from the corps on why Forsyth County's 
vital water interests could not be addressed is because the 
comprehensive study of the ACT/ACF is ongoing.
    Ironically, it was some 10 years ago when this 
comprehensive study was used by the corps as the basis for 
denying the county's request at that time. Here we have come 
full circle again.
    I believe that commitments made to our Senatorial 
delegation have not been honored, and that the corps has placed 
the water needs of Florida and Alabama over the needs of the 
Georgia citizens. Thank you.
    Senator Isakson. Thank you, Mr. Conway.
    Mr. Conway. Thank you.
    Senator Isakson. Ms. Dunlap.

STATEMENT OF KIT DUNLAP, PRESIDENT/CEO, GREATER HALL CHAMBER OF 
                            COMMERCE

    Ms. Dunlap. Senator Isakson, Senator Chambliss, Congressman 
Deal, thank you for giving me the opportunity to discuss some 
water issues that are facing North Georgia and our entire 
State.
    I am here wearing two hats. I currently serve as president 
and CEO of the Greater Hall Chamber of Commerce here in the 
State of Georgia and have a strong interest in the economic 
issues associated with Lake Lanier and the entire ACF Basin.
    I am also here as chairman of the Metropolitan North 
Georgia Water Planning District, which is a 16-county metro 
Atlanta planning agency that was created by the General 
Assembly 5 years ago to develop regional water plans.
    How appropriate we are here today to talk about water or 
lack of water. We are currently in a drought, have extremely 
high temperatures affecting our water and Lake Lanier. We are 
also dealing with the tristate water wars, our critters 
downstream, and a costly water gauge error by the Corps of 
Engineers.
    Lake Lanier is 7 feet below full pool. Today we are at 
1063.9. Full pool is 1071. Traditionally, our driest month is 
October.
    My comments today will focus on three areas, the economic 
impact of Lake Lanier, as already stated is over $5 billion 
annually.
    This was in a 2001 study done by the Marine Trade 
Association of Metro Atlanta.
    It is 5 years old, and it was done at the end of a 4-year 
drought season. Today those values would be much, much higher, 
and I pledge to you I think I can get my study done in about 6 
months and give you a new one.
    Recreation is the dominant part of that figure. Lake Lanier 
is the most visited Corps of Engineers lake in the Southeastern 
United States with a variety of tourism and recreation 
activities.
    The portion of the ACF Basin within the Metropolitan 
Atlanta area accounts for over two-thirds of the basin 
population, and nearly half of the population of the State of 
Georgia.
    It generates a significant majority of the total personal 
income in the ACF Basin and roughly one-half of the personal 
income in the State of Georgia.
    The role of regional water planning--with a finite water 
supply and a population of over 4 million and growing, the need 
to carefully and cooperatively manage and protect Metropolitan 
Atlanta rivers and streams is a top priority.
    In September 2003, the Water District adopted three long-
term water management plans, of which you have a copy of our 
annual report which is submitted for the record.
    [The referenced document follows on page 115.]
    Of these, the water supply and water conservation 
management plan calls for a future of intensive water demand 
management and an aggressive water conservation program.
    When I was asked to serve as chair of the Water District, 
many of my colleagues in Hall County questioned my decision to 
go down to Atlanta to talk about water, talk about our water.
    Yet it was important for all of the players, every county, 
every basin, to be at the table. There were certainly 
differences of opinion during this planning process.
    But the plans were created in all 16 counties and 95 cities 
in the district of moving to put together the plans for water 
conservation.
    We are in a sense ``regulating ourselves'' and working 
together. We learned a lot through the first planning process 
but yet had a long way to go. We applaud Georgia EPD's efforts 
on the new State Water Plan and the district is involved in 
that.
    We certainly realize that other parts of the State have 
different water needs and different interests. We want to 
continue our work with our upstream and downstream neighbors 
and further our outreach programs.
    The district is presently involved in lots of conservation 
efforts, conservation pricing, water system, leak and 
reduction, the district use of a household assessment, which 
you have a copy of, and was submitted to the record.
    [The referenced document follows on page 147.]
    We have a strong education program through the media and 
through our schools.
    Aggressive water conservation is critical to the region's 
future.
    We are developing new programs such as retrofit programs 
for old, inefficient fixtures and pre-rinse spray valves.
    The third part, the impact of water supply on the 
Apalachicola River--the total net diversion from the ACF Basin 
for water supply for the Atlanta metropolitan area ranges 
between 250 and 300 cubic feet per second.
    This is an average daily net diversion from the ACF Basin 
from all 16 counties within the metropolitan water district. 
Most of this water is taken from Lake Lanier, a small amount 
comes from the Flint River.
    To put this figure in comparison, agricultural withdrawals 
in South Georgia, Senator Chambliss, have a much larger impact 
on the surface water resources in the Flint River Basin.
    According to recent testimony by the corps, this impact is 
estimated to be between 600 and 700 cubic feet per second 
during the summer months.
    Because there is no large reservoir in the Flint River, 
withdrawals from this part of the Basin have a ``real time'' 
impact on stream flow.
    Agricultural demands are highest during the summer when 
stream flows are the lowest. Therefore, such demands have a 
disproportionate impact on stream flow.
    Evaporation also has a significant impact as we know today.
    In conclusion, we all need to be prepared to come to the 
table and actively seek solutions to water supply limitations. 
All of our varied interests do not need to be fighting each 
other.
    We need to be working together--Metro Atlanta, Lake Lanier 
Association, other advocacy groups, Corps of Engineers, U.S. 
Fish and Wildlife Service and average citizens to clean up and 
conserve our water.
    There is plenty of water if it is managed correctly. Thank 
you.
    Senator Isakson. Ms. Joseph.

    STATEMENT OF JACKIE JOSPEH, PRESIDENT, THE LAKE LANIER 
                       ASSOCIATION, INC.

    Ms. Joseph. Thank you, Senator Isakson, Senator Chambliss 
and Representative Deal, we appreciate the opportunity.
    Senator Chambliss called me in late June and asked me about 
the possibility of a meeting to take place today. So, I thought 
of that effort because I knew our membership would be extremely 
interested in this type of opportunity which you were offering 
to us.
    The mention of the Lake Lanier Association is dedicated to 
a cleaner Lake Lanier to enhance the economic development for 
the entire State of Georgia.
    Established in 1966 with 4,000 members, 1,700 memberships, 
which include recreational use, businesses, water usage, and 
dock owners and residents who just enjoy the peace and 
tranquility of this wonderful lake water.
    We do have many solid programs. We have shore sweep, which 
is a lake clean up. The community has 1,200 people participate 
in that which, of course, is inclusive of scout troops. That is 
one of our big activities where we take 20,000 tons of garbage 
to be picked up and we hope to--we don't like to have to pick 
up the trash but we do.
    We have the Adopt-A-Lake program, which is very active. We 
go out and we monitor certain areas of the lake. We participate 
in this and we are collecting the data to determine baseline, 
so we know exactly what is happening in this sphere, which is 
basically an advocacy group for Lake Lanier.
    We feel that it is the finest Natural Resource in the State 
of Georgia, created, of course, by legislation and Senate and 
Congress back in the late 1940s. Property was bought, 640 miles 
of shoreline, 8,500 private docks, 10,000 boats, 10 marinas and 
8 million visitors annually.
    We are the drinking water source for 4-plus-million 
Georgians, with the--billion dollar economy. Sixty-six percent 
of the AFC stored water storage in Lake Lanier and 5 to 7 
percent of the AFC watershed.
    Of course, we have a lot of issues. The issues are the 
municipalities are calling for sewage discharge into Lake 
Lanier and calls for for up to 200 million gallons by the year 
2025, as Ms. Dunlap alluded to, that the Metropolitan Georgia's 
Planning Commission District came up with.
    The support of the Lake Lanier Association denied sewage 
discharge permits as it relates particularly to the quality 
standards of Lake Lanier from the standpoint of Gwinnett 
County. The sewage discharges are necessary for sustained 
Georgia growth.
    However, we do feel and we are very adamant in this 
particular subject, that sewer discharge must be as clean as 
possible through the treatment processes that are used by the 
counties and/or municipalities that are asking for those 
particular discharges.
    Gwinnett County has agreed with the Lake Lanier Association 
to make the discharge very clean indeed. Georgia EPD has not 
issued a program, it was applied in the summer 2005, which we 
negotiated with Gwinnett County satisfactorily.
    The EPD should issue Gwinnett sewage discharge permits. The 
EPD should direct that all future Lake Lanier sewage discharges 
must be at least as clean and deep as the Gwinnett permit 
requests.
    Georgia should ensure that the water management plans 
specifically addresses cleanliness and sewage discharges, and 
reuse strategies which have not been discussed in the Basin 
Advisory Committee meetings, which I attended three or four, 
and we have yet to address this issue and we feel that is, in 
fact, a serious issue that needs to be brought to the corps' 
attention.
    The AFC must be managed as a system in a prudent manner. 
Low lake levels are very dangerous to boaters, swimmers and the 
economy. Reservoirs are significant investments, and should be 
managed accordingly.
    A balance between endangered species and human requirements 
must be effective.
    First of all, if we are talking about humans versus 
species, and I think you have addressed that accurately and we 
all feel the same way, and I think our membership would 
certainly agree with that.
    The water flows at the Florida line for mussels and 
sturgeons should not be artificially inflated to a level 
greater than the natural water flows without reservoirs unless 
excess water flow capabilities exist.
    Economic value of water must be evaluated before release 
decisions are implemented. As an example, Lake Lanier is in 
contribution to Georgia versus a very small oyster industry in 
Florida.
    Establish a fair level of support for the endangered 
species, but not to the detriment of drinking water and safety. 
Mussels should not trump people.
    Implement solid reinforced management of the AFC System, 
rather than overreacting to specific requests. Prevalidate all 
water release decisions with onsite visual inspections.
    Set a lower limit for Lake Lanier (example 1060) and do not 
go below that limit. Consider raising full pool at Lake Lanier 
to 1,073 feet. This would be like adding 25 billion gallons to 
the reservoir to the system.
    Consider closer management of the Flint River, particularly 
the withdrawal and permitting processes. Lake Lanier is the 
most valuable national resource in Georgia, certainly the most.
    Lake Lanier must be kept clean and full for the economic 
vitality and growth of Georgia and prudent management of the 
system is essential for Georgia's objectives.
    We appreciate your opportunity and thank you for allowing 
us to speak to you today.
    Senator Isakson. Thank you, Ms. Joseph.
    We will take 5 minutes each on questions. Mr. Chairman and 
Mr. Conway, I want to thank you. You mentioned the permit that 
Forsyth County has had for the corps, for roughly, I think 10 
years; is that correct?
    Mr. Conway. Actually, it goes back about 25 years, Senator.
    Senator Isakson. The reason that I asked General Walsh the 
question about the four outstanding permits is one is in your--
--
    Mr. Conway. That's correct.
    Senator Isakson. In defense of Mr. Walsh, this 
communication you referred to was the communication between 
Secretary Woodley, Senator Chambliss and myself, which we have 
a copy which we will submit and make a part of the record.
    But in that, I just want the record to reflect that in that 
letter, responding to Senator Chambliss and myself, Secretary 
Woodley didn't just implement it. He flat out stated it's for 
the procedure process.
    He is the superior to General Walsh, so I don't recall, 
General Walsh, what his answer was, but I knew on when I asked 
that question, on many occasions, you and I have had, as well 
as others, we have had outstanding permits for a long, long 
period of time.
    Do you have an additional comment on that process?
    Mr. Conway. No, I just--I think it is unusual that the 
corps can release billions of gallons of water in a matter of 
days or even hours, yet when the 11th Circuit Court of Appeals 
directed to the corps to vacate the order of the Alabama judge, 
that even after all of our correspondence, that the corps took 
the position that there may be an appeal so nothing could be 
done. It is incredible.
    The perception seems to be that for the last 25 years, 
whatever Forsyth County has asked, the answer is always no. 
It's just a matter of what question you put before them and 
what region----
    Senator Isakson. What is a ``holdover water storage 
contract''?
    Mr. Conway. The water storage contracts are what the 
withdrawer pays for the amount of water they take out. When we 
went and asked for a water withdrawal permit, I think it was 
back in the 1970s that the water contract first came up because 
they said we didn't have a water contract.
    Then I think in the 1900s, it was denied that there was--
well, what happened, when it got to be 2000, and I think it was 
around 2001 or 2002, that the compacts--these are called ``the 
compacts,'' the water compacts, they were running out. What the 
corps did, they didn't renew any of those contracts.
    So what they did was, when we asked for a permit for the 
water withdrawal, they said you don't have a holdover water 
contract, so that was created as a reason for saying we 
couldn't have it because we didn't have a storage contract.
    So they said that they were holdover contracts and then 
they said again, just recently it came up that the water 
contracts were all let go so that nobody had a water contract. 
Yet when the judge's order was vacated and Woodley got involved 
in it, it came up again that said, you don't have a holdover 
water contract again.
    So it came full circle to where you had it, it was the 
reason that the city only had a holdover water contract and we 
didn't, and then they said they had all expired.
    Then the next time they came back, they said, well, there 
is holdover water contracts again. So it is a moving target.
    Senator Isakson. Ms. Joseph?
    Ms. Joseph. Yes, sir.
    Senator Isakson. During the period of time of the 
unfortunate 1.9 additional feet of 22 billion gallons of water 
was being released, our office received a number of phone calls 
from people concerned about the lake levels. I assume the Corps 
of Engineers received a lot of phone calls, too.
    From your standpoint, how is the communication between the 
citizens, and in particular the citizens and the Corps of 
Engineers?
    Ms. Joseph. We did have a number of responses of people who 
called and we referred them to the corps office, because we 
really did not have an answer at that particular point in time, 
except to tell them to call the corps.
    Senator Isakson. Has that access been pretty easy in your 
case----
    Ms. Joseph. Yes, I would say the corps was responsive in at 
least answering the questions.
    I don't think at that particular point in time that people 
were saying they had observed by the dock, by whatever markers 
they may have at that particular location saying that they were 
well aware that there was a significant difference.
    First of all, I would like to say that we did call, and I 
did speak to this lovely lady and I spoke to other folks and I 
spoke briefly with Jonathan Nathus, who is the resource 
manager, and they said it is obvious that the water is going 
down and I don't know at that point if they had an answer or 
they certainly would have told us.
    Senator Isakson. Thank you very much.
    Ms. Dunlap, I will talk to you in your hat as chamber--you 
cited in your testimony, and so did Ms. Joseph, the tremendous 
economic value of Lake Lanier's resources and what it does for 
the economy.
    Do you know of any examples where businesses or companies 
considering coming into this area didn't because of the water 
problems?
    Ms. Dunlap. No, sir, at this time, I do not.
    Senator Isakson. Has that question come up?
    Ms. Dunlap. Obviously, it would come up. I think it came up 
during the 4-year period of 1999 through 2001. You know, as we 
continued the dry period, we worked on that residential 
housing, and it has to do with companies and the wonderful 
resource of 38,000 acres and seeing a lot of red mud with the 
water of Lake Lanier so very low.
    Senator Isakson. I want to commend all three of you and 
your testimony in particular. I am sorry the slide show didn't 
work as well as it was intended, because the handouts are 
beautiful, and I appreciate the comprehensive nature of 
Association Corps.
    Without objection, this will become part of the permanent 
record.
    Ms. Dunlap. Thank you, Senator.
    Senator Isakson. Senator Chambliss.
    Senator Chambliss. Do you have the potential for severe 
water crisis in your county and what can cure that crisis if 
that is the case.
    Mr. Conway. We did have a water crisis that we had to do a 
reverse 911. Several weeks ago, our water levels got 
dangerously low to the point where we were concerned about 
health issues. We've had a firefighting issue with it, and our 
tanks got that low.
    We have a usage problem in our county that we have gotten 
under control now, but the supply that we need and why we need 
the second intake is that the present intake we have is in a 
fairly shallow area.
    At times in a drought like now, the water quality is not 
very good and it takes quite a bit of effort to treat it. We 
cannot physically pull out of that intake our present 
allocation for withdrawal from the lake. It is for both the 
city and the county because we both draw out of the same lakes.
    Senator Chambliss. Ms. Joseph, you talked about your 
relationship with the corps.
    Do you primarily speak with one voice for your membership 
or has everybody on their own contacted the corps? I want to 
know if everyone is getting the same answer.
    Ms. Joseph. Senator, typically what we will do is, we have 
an executive director and she is in the office and takes care 
of all the issues and the calls and works out other numbers 
too. But typically she would, I don't think experience is the 
word for it, but accept the calls coming in.
    In some instances, there are issues with the corps, not 
just water issues that our organization would be able to 
answer, but if we don't, we refer it to the corps.
    Issues that are fairly common, we can usually handle that, 
and we act as a screening situation for them.
    When it comes to little issues like, why can't I have a 
dock here and things like that, normal issues that new 
residents particularly have. We do refer to the corps on a 
regular basis.
    I spoke with Mr. Davis yesterday regarding this meeting and 
other issues, so we do communicate frequently. Of course, I 
really don't know about the water issue, how many calls he's 
received. I don't know. I have no idea. I know we've had a 
number of calls.
    Senator Chambliss. Ms. Dunlap, what about your relationship 
with the corps, have you found the same that they have been 
receptive to the water issues?
    Ms. Dunlap. Senator Chambliss, I have lived on this lake--
well, I won't say how many years, but I came to live in Hall 
County in the 1960s and have been here ever since.
    I have a very good relationship with the Corps of Engineers 
and the local management. Irwin Topper, who was here for many 
years and then his successor have been open and receptive to 
the public and the Chamber of Commerce.
    Jonathan Davis being very new on the job, his first day on 
the job was a meeting with some of you all, and I certainly get 
questions answered when I call him. I speak for the Chamber of 
Commerce, as well as the Water District.
    In fact, Colonel Pete Taylor made a report to the Water 
District last year. But I will say sometimes when you get out 
of our area on some other areas as permitting reservoirs and 
other issues, it is kind of hard to tell where it goes. Whether 
it is Mobile, whether it is Savannah, and it is hard to get a 
straight answer.
    Senator Chambliss. I think it would be a good idea if we 
can get a copy of that 2001 Trade Association Study and attach 
it to the record.
    Ms. Dunlap. We have. I believe 25 copies were sent to 
Senator Isakson's office on Friday.
    Senator Chambliss. Very good.
    Ms. Joseph, for the record, let's talk about some effects 
of the lower water levels this summer on the lake; and in 
particular, recreation is a critical part of the decisionmaking 
process, but also from the safety standpoint.
    Can you tell us what issues we are facing right now at the 
lake?
    Ms. Joseph. I would suggest, Senator, that significantly 
people who are not as familiar with the lake as some of the 
people who may live on the lake who know what some of the 
hazards would be involved, a separate issue would be brought 
there. I would think that some have been. There are, but then I 
don't know how widespread it is.
    For example, if you had a marker indicating that there is a 
lower area, it may be a sand bar, or it could be a rock, a 
facility there, it can be located there, and it can spread out 
over a period--I mean, over a distance, but I'm not familiar 
with the process.
    I would think that many people that navigate the lake who 
are residents who do it frequently are very much attuned to 
where these danger spots would be. But I would think that maybe 
additional markers because we don't know because when it goes 
low.
    I didn't really know that that particular--I thought it was 
just the bar itself. It may run 50 or 60 feet out, it may be 
before an inch of rock. Some of those are exposed now that we 
hadn't seen recently. There are disadvantages to that, yes.
    Senator Chambliss. Thank you.
    Senator Isakson. Congressman Deal.
    Mr. Deal. Let me, first of all, thank all the panel 
members. You all represent points of view that need to be 
heard, and I appreciate the corps being here for the purpose of 
hearing that.
    Mr. Conway, I want to personally and publicly thank you for 
being an aggressive leader on this issue. You have represented 
your constituents well.
    You have been an outstanding spokesman on the problems that 
exist. Perhaps some of the problems that should have been 
avoided and can be avoided. I would just like to amplify on the 
illustration that you gave earlier.
    In your answer, you are not really for that you would like 
to have a larger withdrawal or a permit altogether on behalf of 
the county, but the current withdrawal apparatus with the 
piping in such shallow water, it is impossible to currently 
withdraw the level that you are already, that you and the city 
of Cumming are already authorized to withdraw; do I understand 
that correctly?
    Mr. Conway. That's correct.
    Mr. Deal. That is the reason for your request for the 
secondary easement for purposes of additional water outtake 
pipe. Not for new water, but just to be able to take advantage 
of the authorized permit level that has previously been 
granted. Is that correct?
    Mr. Conway. That's correct, Congressman.
    Mr. Deal. I have said this to the corps, and I'll say it 
again, it seems that once these legal impediments have been 
removed, and I think that most of them have now maybe been 
removed, that seems like a reasonable request.
    I would hope you would give priority to that consideration 
because this is not the withdrawal amount, it is just taking 
what has been already been authorized by the corps.
    Two, just to re-emphasize the point, tell us where you are 
in terms of population of growth in Forsyth County.
    Mr. Conway. Congressman, first of all, thank you for the 
kind words. I appreciate that. Not too many people know how 
much I have done on water over the last few years, but I think 
that you guys have seen me a number of times and you know that 
I have a passion for this and it is something that is very 
important to our county.
    Our county has topped the 140,000 citizen mark. This past 
year, we have grown by about 8,500 residents. It looks like we 
will continue to grow at that pace for at least the next 
several years because there is that much growth.
    Mr. Deal. You have consistently within the decade been 
either the fastest growing within the top 10 fastest growing 
counties in the United States. Is that not right?
    Mr. Conway. Yes, sir, Congressman. However, this past year, 
we're dropped down to 14.
    Mr. Deal. Oh, not enough water.
    Mr. Conway, I want to thank you too because we've all had a 
close working relationship with your Association and appreciate 
the efficacy that that Association puts forward.
    I would like to touch upon the one, the point in your 
presentation about the possibility of raising the pool level of 
Lake Lanier by an additional 2 feet, which I think the 
calculation is that would be an additional 25 billion gallons 
of storage.
    You hear all sorts of arguments about the effects of 
raising or even lowering, in some cases, pool elevation level.
    One of the concerns I have had, and it becomes very obvious 
in some of these periods when the level drops precipitously, is 
that this constant ebb and flow has a huge erosion factor 
associated with that, does it not?
    Ms. Joseph. Yes, it does have an erosion factor. But in our 
opinion, in talking also I might insert this, that I have 
spoken with several people. I have spoken also with residents, 
individuals--and the feeling is it would not be, other than the 
erosion issue, it would not be an impact on anyone's--either 
dock or anyone's residence, that they wouldn't feel that there 
was any problem with that.
    They would like to see that versus actually having the 
water where it is today. In other words, another important 
factor, but I don't think it would--is what I would ascertain 
from discussions with people.
    Mr. Deal. My recollection is that several years ago when we 
got very close to thinking we had the greatest amount of three 
States, that the raising of Lake Lanier's pool level by 2 
additional feet was a part of that.
    It was almost to the point of being finalized at one point, 
but the signatures weren't forthcoming. But I didn't think it 
is a significant part of hopefully, any new proposed water 
plant for the lake.
    Could I ask one very quick question, if I may, I know my 
time is up.
    Senator Isakson. Sure.
    Mr. Deal. Ms. Dunlap, thank you for what you do. I know 
your group has been very active in trying to promote 
conservation alluded to in the handouts that are here.
    Could you, rather quickly, tell us what you have done, 
because I don't know if people who are not from this area just 
think we are trying to get greedy with the water. I think they 
need to know that we are doing this and continuing to promote 
conservation practices. Would you refer to some of them?
    Ms. Dunlap. Thank you, Congressman Deal. Our plans were 
adopted in 2003, which is a very short time ago. But since 
then, we have put in place policies for 16 counties to regulate 
water supply, storm water, waste water management.
    We are dealing with, like I say, almost a hundred 
municipalities that in some way adopted these measurements. 
Certainly water conservation is a part of it. Our education 
process, educating the public, elected officials the need for 
water conservation----
    We have put in place--of course, the basic premise of our 
whole water district plan is to return water to its source and 
construct new reservoirs.
    So I would say the adoption of our three plans by these 
municipal governments have greatly affected water conservation 
positively. We have a long way to go, but I think we have come 
a long way in conservation.
    But we need to all be working together. I would say this, 
that unless we have a strong management plan or our greatest 
resource, then it is hard for us to work our plan.
    Mr. Deal. Thank you.
    Senator Isakson. I want to thank our panelists. Let's give 
them a round of applause.
    Senator Chambliss. Let me just make a quick comment.
    We do have an ongoing dialogue, obviously, Nathan lives 
here. All three of these folks have been terrific in staying in 
touch with our office even on the smallest of issues.
    We can't tell you how much we appreciate that because, if 
we don't know what is going on, it's difficult for us to react.
    So they represent you folks well. So all three of you, 
thank you for what you do for us.
    Senator Isakson. It is about 10 minutes to noon, so we all 
get out a little bit early--let's see if anybody has any 
questions for the three of us.
    If anybody has one, raise your hand; if you don't, we will 
adjourn the hearing.
    Yes, sir. State your name and where you reside and speak 
loudly.
    Mr. Sloan. My name is Michael Sloan, and I live in Forsyth 
County.
    Congressman Deal, several months ago, I believe you wrote a 
letter to Colonel Taylor in reference to the issue at Bethel 
Park and why that park had not been offered to Forsyth County 
in accordance with Federal regulations.
    As far as the residents of the county know, at this time, 
there has been no response from the corps to your request.
    Additionally, the county sought a freedom of information 
request from the corps for them to present their documentation 
that they hadn't got offered that park formally to Forsyth 
County.
    Do you have any information on that?
    Senator Isakson. Before you answer--in keeping with the 
rules of the Senate, I will officially adjourn this meeting to 
questions and answers which may be about other issues so it 
doesn't become a part of the permanent record. So for technical 
purposes, we stand adjourned.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
         Statement of Sonny Perdue, Governor, State of Georgia
    I would like to thank the Senate Environment and Public Works 
Committee for conducting this field hearing today on this very 
important issue. I would also like to thank Senator Saxby Chambliss, 
Senator Johnny Isakson and Congressman Nathan Deal for their leadership 
on this issue.
    The issue of the United States Army Corps of Engineers' (Corps) 
management of the ACT and ACF river Basins is both timely and 
significant. The rivers that make up these basins are among the State 
of Georgia's most precious natural resources. Waters arising and 
flowing in Georgia are waters of the State of Georgia, and the federal 
reservoirs constructed on them should be operated by the Corps to meet 
vital needs of Georgia's citizens, including water supply, waste 
assimilation, recreation and navigation, and support of the biological 
needs of a wide variety of species.
    In March of this year, the Corps announced a new reservoir 
management plan for the ACF Basin reservoirs called the Interim 
Operations Plan (the IOP). The IOP was intended to support the needs of 
the endangered Gulf sturgeon during its spring spawn and the needs of 
two species of protected mussels in the summer. While the intention of 
the IOP may be good, the State of Georgia is concerned that it mandates 
the release of far more water than is necessary for the protection of 
these species and depletes the water storage upon which people and 
wildlife--including the protected species at issue--depend. 
Unfortunately, the Corps has largely dismissed Georgia's concerns.
    <bullet> On May 5, 2006, Dr. Carol Couch, Director of Georgia's 
Environmental Protection Division, wrote a letter to the Corps 
enclosing hydrologic data showing that the Corps' continued operations 
could draw down the federal reservoirs in the ACF Basin to their lowest 
level in 50 years and could effectively empty them.
    <bullet> On June 1, 2006, Dr. Couch sent a letter to the Corps and 
the U.S. Fish and Wildlife Service (FWS) requesting specific changes to 
the IOP.
    <bullet> On June 2, 2006, I wrote Secretary of the Army Frances 
Harvey sharing Georgia's concern that ``unless the Corps changes its 
operating protocols, the reservoirs and lakes in the system will be 
drawn down to their lowest level in recorded history.''
    <bullet> Also on June 2, 2006, Dr. Couch sent a letter to Colonel 
Peter Taylor and FWS with an attached memorandum providing additional 
results of the simulation of the IOP using data and information 
received from the Corps.
    <bullet> On June 6, 2006, I personally met with General Michael 
Walsh and Colonel Taylor again expressing these concerns.
    <bullet> By June 9, 2006, the State had received no material 
responses from the Corps in response to its letters. Thus, on June 9, 
2006, Dr. Couch wrote the Corps another letter demanding specific 
revisions to the IOP.
    <bullet> On June 12, 2006, the Corps responded by letter to Dr. 
Couch's June 1 and June 2 letters. The Corps challenged what it 
believed to be certain of the assumptions underlying Georgia's 
simulations of the IOP, but did not provide data to allow Georgia to 
assess the validity of the Corps' assertions or to fully evaluate the 
discrepancies between the Corps' and Georgia's models.
    <bullet> The Corps repeatedly put off responding to our June 9, 
2006 letter that demanded changes to the IOP. After several requests 
for more time, the Corps finally stated that it would not respond to 
the June 9, 2006 letter because of unidentified ``concerns raised by 
the other parties to the litigation.'' In fact, the Corps did not 
respond to Dr. Couch's June 9 letter until June 21, 2006.
    In the midst of all of this, the Corps admitted to releasing more 
than 22 billion gallons of water from Lake Lanier by mistake--at a time 
when the region was approaching what is traditionally the driest time 
of the year. By this mistake, they essentially created a ``man made'' 
drought on top of a natural drought.
    The 22.5 billion gallons of water that the Corps mistakenly 
released corresponds to 6.3 percent of Lake Lanier's conservation, 22.5 
percent of West Point's, and 28.2 percent of Walter F. George's (Lake 
Eufaula) storage conservation.
    This year, 2006 is 1 of only 2 years in Lake Lanier's history when 
the lake fell during the period of January through May, which is 
normally a time of refill, even in drought years. The other year when 
this occurred was during the drought of 1986. Submitted with my 
testimony is a chart that shows the drop in Lake Lanier levels this 
year compared to lake levels experienced during the drought of 1999-
2001. This chart shows:
    <bullet> Lake Lanier was able to rise in elevation for the same 
period (January 1 to June 1) even during the 1991-2001 drought, the 
most severe drought in history for the ACF Basin.
    <bullet> For example, Lanier began 2006 more than 5 feet higher 
than it began 1999, but the Lake is now more than two and a half feet 
lower than it was on August 3, 1999.
    <bullet> For example, on January 1, 2006 Lanier elevation was 13 
feet higher than the January 1, 2001 level, yet last night's elevation 
was less than one and a half feet higher than at the same time in 2001.
    <bullet> This unprecedented loss of storage, with the perspective 
of what happened in the past droughts, is clearly the result of the IOP 
(which was not a part of the past reservoir operations), in particular 
the magnitude of flow it calls for during the spawning season (March 
through May).
    The unfortunate actions by the Corps and the Corps' repeated lack 
of response to our concerns left Georgia with no alternative but to 
take legal action to protect our water resources. As you are aware, the 
State of Georgia filed a complaint in the Northern District of Georgia 
to stop the Corps' continued operation according to the Interim 
Operations Plan. This case is pending.
    Litigation is never how I choose to deal with issues. As I 
explained earlier, we have tried to impress our concerns upon the 
Corps. The Corps has been largely non-responsive. The threat to the 
State of Georgia is urgent and the situation demands immediate action.
    We have challenged the IOP because the Corps must allow the lakes 
to refill and recover the lost stored water. Common sense tells us that 
you cannot manage a system of reservoirs if you never store any water. 
The Corps' Interim Operations Plan was adopted without any prior 
notice, without any public participation, without analysis of its 
impact on authorized purposes for which the federal reservoirs were 
constructed, without consideration of its impact on the water supply 
security for the millions of people who rely on the Chattahoochee 
reservoir system for water supply, without consideration of its long-
term sustainability or its long-term impact on federally protected 
species, and without consideration of alternatives. The result is an 
unbalanced plan that poses a severe risk of substantial harm to the 
State of Georgia.
    In fact, the Interim Operations Plan is essentially a water control 
plan. A water control plan that was adopted without any public comment 
or notice and taking only one factor into consideration--endangered 
species. Georgia has long advocated that the Corps should update its 
master control plan for both the ACF and ACT basins--which it has not 
done in over 50 years. As a result, the Corps is operating these 
complex systems without reliable and predictable operating rules 
tailored to current demands and conditions within the Basins. Indeed, 
the Corps' own regulations provide that water control plans should be 
updated periodically in light of changing demands and other conditions. 
And there is no question that over the last 50 years the ACF and ACT 
Basins in Georgia have changed dramatically.
    The Federal Government itself recognized the need for current 
plans. The Federal Emergency Management Agency (FEMA) is investing 
millions of dollars in updating floodplain maps. This is a response to 
growth in Georgia and Alabama that has altered the flood 
characteristics of watersheds. The Corps needs to incorporate these 
altered flood characteristics into updated operation manuals to ensure 
protection of life and property in both states.
    Further, inefficient, inaccurate, or unpredictable operation of the 
ACF and ACT systems results in growing uncertainty about the supply of 
water for more than half of Georgia's citizens and for facilities such 
as the Farley Nuclear Plant and other powerplants. The water control 
plans also should be updated as part of implementing the 2003 
settlement reached by the Corps, Georgia, and other parties that will 
help ensure that metropolitan north Georgia's water needs for the next 
decade will be met.
    The failure of the Corps to update the water control plan is also 
affecting a stated purpose of lakes in the basin--recreation. West 
Point officials have asked the Corps to raise the level of the lake by 
two feet in the winter when water is plentiful to accommodate 
recreational needs that have a significant impact on the region's 
economy. But Corps officials have said that they have to adhere to the 
elevation levels in the IOP.
    What does all of this mean? The Corps is providing flows for 
endangered sturgeon and mussels under an IOP that was developed without 
studying its full effects and without properly updating the Corps' 
grossly outdated water control plans. The Corps' performance under the 
IOP this year demonstrates that it is not a sustainable plan. With a 
continuation of this dry year, Lake Lanier, Lake Eufaula (Walter F. 
George), West Point and Seminole will all drop to levels that will put 
at risk water supply, water quality, endangered species and other 
wildlife, and will be devastating to recreational boating and fishing 
that support the local economies.
    In closing I would like to say that I cannot believe Congress 
passed the Endangered Species Act with the intention of providing 
substantially more protection for the species than for human beings. 
The Corps can provide for both the needs of the endangered species and 
the needs of humans upstream if it operates wisely and is guided by 
sound science and good planning. For example, I do not believe that 
Congress intended that the Corps provide the species with more water 
than even the natural environment would support, particularly when it 
comes at such a great cost upstream. Even at a flow of 5000 cubic feet 
per second, which the Corps IOP calls for, and under which we operate 
today, mussels are getting more water now than they would if no dam had 
been built and no reservoirs created.
    It is time for common sense to prevail on this issue. That is what 
we want from the Corps when asking that they update 50-year-old water 
control plans. That is what we seek through our request to stop the 
release of water greater than nature would provide. And that's the 
approach I will take when I sit down with Governor Riley on August 
14th.
    Thank you again for this opportunity.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   Statement of Brigadier General Michael J. Walsh, Commander, South 
Atlantic Division, U.S. Army Corps of Engineers, Department of the Army
                              introduction
    Members of Congress and distinguished guests, I am Brigadier 
General Michael J. Walsh, Division Commander, South Atlantic Division, 
U.S. Army Corps of Engineers. Thank you for the opportunity to provide 
this statement before you today concerning the Corps operations and 
management of the Alabama-Coosa-Tallapoosa River Basin encompassing 
parts of Georgia and Alabama and the Apalachicola-Chattahoochee-Flint 
River Basin encompassing parts of Alabama, Florida and Georgia. The 
U.S. Army Corps of Engineers practices the principle of openness. We 
strive to maintain transparency in our operations providing all our 
publics with as much data as possible via our Web site, sharing of 
information with state and Federal agencies, and through the media 
concerning our operations and management of this system.
    I would like to divide my statement into three parts: normal 
management, support for the endangered species act, and the gauge 
calibration error at Lake Lanier.
                           normal management
    The Alabama-Coosa-Tallapoosa Rivers project is a multipurpose 
project providing for flood control, hydropower, navigation, water 
supply, water quality, recreation and fish and wildlife conservation. 
The system has 5 Corps projects and 10 Alabama Power Company dams. The 
Corps projects consist of two major storage projects, Allatoona and 
Carters in Georgia at the upper end of the basin and three run-of-the-
river projects at the lower end of the basin in Alabama. The Alabama 
Power Projects are located on the Coosa and Tallapoosa Rivers and are 
operated in conjunction with Corps projects to provide a minimum 7-day 
average flow in the system. The Corps has flood control oversight of 
the Alabama Power Projects.
    The ACT basin is experiencing the same drought conditions as other 
river basins in the Southeast. The two upper most projects, Allatoona 
and Carters are experiencing inflows averaging 30 percent of normal. 
Allatoona is currently 6.5-feet below normal summer pool and Carters is 
10 feet below normal. Releases from Allatoona are being kept to a 
minimum with only two hours of hydropower generation a day plus a 
continuous 240 cubic feet per second release for water quality 
purposes. Carters, which is a pump back hydropower generating system, 
is operating in the pump back mode only.
    At the lower end of the system in the Alabama River, depths are 6-
feet below project depth to support navigation. The only releases 
occurring at the projects are the minimum flows coming from the 
upstream Alabama Power Projects. The Alabama River situation, due to 
the drought, has caused one major industry to modify its water intake 
to remain operational.
    The Apalachicola-Chattahoochee-Flint Rivers project is also a 
multipurpose project providing for flood control, hydropower, 
navigation, water supply, water quality, recreation and fish and 
wildlife conservation. The Federal projects on the basin system begin 
with Lake Sidney Lanier at the headwaters, West Point Lake, Lake Walter 
F. George, George W. Andrews, and Lake Seminole at the lower end of the 
basin. There are several lakes with hydropower facilities operated by 
private and public utilities along the system as well.
    Under normal circumstances the Corps operates and manages these 
reservoirs to meet all project purposes in accordance with the draft 
water management plans developed in the late 1980s. These plans 
establish certain zones of water levels that trigger actions when these 
levels are reached. This management has proven to be successful in 
meeting project purposes.
    It is primarily when drought hits the system that issues begin to 
arise. The Corps continues to operate and manage the system based on 
the above mentioned plan. This calls for balancing the various 
reservoirs with available water to keep them in the same action zones. 
These zones have been developed to meet as many project purposes as 
possible with dwindling water availability during a drought.
    As conditions worsen during times of drought, some project purposes 
become a higher priority. These priorities include water supply, water 
quality, hydropower and fish and wildlife conservation. Fortunately, we 
are often able to simultaneously meet several of these needs with one 
action. For example, water released for water quality can also be run 
through a generator to produce hydropower.
    Like many of the systems operated and managed in the Southeast, 
along with most of the Nation, this river basin system is in a drought. 
The National Weather Service Drought Monitor shows North Georgia is in 
a moderate drought and as you move southward it is characterized as a 
severe drought. We operate and manage this basin as a system; when the 
lower basin receives less inflow, we must augment flows from stored 
water to maintain balance.
                         endangered species act
    The Corps and the U.S. Fish and Wildlife Service have been in 
consultation since 2000 concerning various mussel species and, more 
recently, the Gulf Sturgeon, which all fall under the protection of the 
Endangered Species Act. Together we have developed an interim 
operations plan to provide adequate water from the system to protect 
and enhance the habitat of these species. During normal conditions, 
these needs have been met through routine operation and management.
    As we entered the drought period, management for these species has 
become more difficult. From March through late June, our flow regimes 
have been in accordance with the Interim Operations Plan (IOP) that is 
the subject of Formal Section 7 Consultation with the U.S. Fish and 
Wildlife Service. As part of the litigation actions, the Court ordered 
specific flows in late June through early July. The States and other 
parties to the litigation actions, the Court ordered specific flows in 
late June through early July. The States and other parties to the 
litigation then agreed to a flow regime that took us through late July. 
Today we are once again operating in accordance with the IOP. The 
formal consultation with the U.S. Fish and Wildlife Service on the IOP 
is on-going. The Biological Opinion from the U.S. Fish and Wildlife 
Service as a result of the formal consultation process is due September 
5, 2006.
                        gauge calibration error
    On June 16 of this year we discovered we had a gauge calibration 
error at Lake Sidney Lanier. This error led us to release additional 
water that would not normally have been released during that timeframe.
    In December 2005 during routine maintenance of the gauge, it was 
discovered that certain components were worn. New parts were ordered 
and installed, to include a device called a selsyn. A selsyn is an 
encoder that reads the mechanical data provided by the float via the 
pulley. It converts the mechanical data to electronic data which is 
sent to the powerhouse indicating the lake level. As part of the 
installation, a scaling factor had to be programmed into the selsyn and 
we input the factor recommended by the manufacturer. Unfortunately we 
were not clear in our communications with the manufacturer in that we 
had not replaced the pulley attached to the selsyn. The manufacturer 
assumed both the selsyn and the pulley were new, and provided a scaling 
factor for a complete new system. The result was that we inputted a 
scaling factor that was not appropriate for the existing pulley 
attached to the new selsyn.
    Between the time of installation and mid-April of this year, levels 
at Lake Lanier remained relatively stable and no error was detected. 
Beginning in mid-April we began making water releases for downstream 
needs in accordance with the IOP. The calibration error led us to 
believe we had a higher pool level than actually existed, indicating a 
greater inflow into the lake than was actually occurring. We were 
operating under the IOP, which required us to essentially release one 
hundred percent of basin inflows to mimic a run of the river flow for 
the entire basin. As the gauge data were not correct, we were releasing 
more water than was actually entering the lake by approximately one 
half inch per day. Consistent with our policy of openness about our 
operations, we informed congressional interests, stakeholders and the 
general public as soon as we learned of this problem.
    We have corrected the gauge error and we have confirmed the 
accuracy of all our gauges on the system. In addition we have installed 
redundant gauges at all projects and updated procedures to verify their 
accuracy.
                                summary
    Thank you for the opportunity to update you on the management of 
the Apalachicola-Chattahoochee-Flint Rivers project. I assure you the 
Corps is committed to working with all stakeholders in the basin to 
provide the best management and operation of our lakes. I am hopeful 
the current mediation process that is taking place among the three 
states and the Army will produce a framework to bring mutual protection 
and balance to this precious resource.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Statement of Jack Conway, Chairman, Forsyth County Board of 
                   Commissioners, Forsyth County, GA
    On behalf of Forsyth County, the Forsyth County Board of 
Commissioners, and all Forsyth County citizens, I want to thank this 
honorable committee for providing me this opportunity to testify 
regarding Forsyth County's experience and interaction with the U.S. 
Army Corps of Engineers and its management of the ACT and ACF River 
Basins, specifically Lake Lanier.
    At the outset, I must respectfully advise that Forsyth County's 
experience with the Corps and its management and stewardship over Lake 
Lanier has been at best frustrating and at worst exasperating. Forsyth 
County has been, and remains, discouraged and disappointed by the 
endless layers of bureaucracy, politics, and red-tape that seem to 
control the Corps, and that make it almost impossible to receive a 
straight, or even consistent, answer to even the most mundane of 
questions.
    To make matters worse, the Corps seems to go to great lengths to 
fashion new and innovative reasons for rejecting any and all proposals 
by Forsyth County on methods by which the County can initiate 
construction of vital, redundant infrastructure for water withdrawal 
from Lake Lanier. This, in spite of the fact that over 21 square miles 
of Lake Lanier sits within the jurisdictional boundaries of Forsyth 
County. There is more than a little irony in the fact that Forsyth 
County sits upon one of the largest fresh water bodies in the 
Southeast, yet is only one pump failure away from a health crisis due 
to lack of water availability.
    Throughout my tenure as Chairman of the Forsyth County Board of 
Commissioners, one of my chief goals has been to ensure that Forsyth 
County has sufficient water available to satisfy both the present and 
long-term demands of its citizens. That effort has necessarily 
generated multiple discussions, meetings, correspondence and telephone 
calls with Corps' personnel. The only consistent theme that has 
permeated these repeated encounters with Corps' personnel is that the 
County's overtures and initiatives are systematically rebuffed. The 
reasons for the rejection appear to change on a daily basis and also 
vary depending upon which Corps' official responds.
    Although the County's request to the Corps for its own water intake 
begin in the mid-1970s, I will begin my chronology in 1996 to 
demonstrate Forsyth County's inability to obtain any cooperation 
whatsoever by the Corps on the water issue. While the County was, and 
remains, mindful that the so called ``water wars'' have been ongoing, 
and that this litigation has impacted the Corps' discretion in issuing 
water withdrawals, the Corps' interpretation of the 1992 Memorandum of 
Agreement between Georgia, Florida and Alabama, has been a moving 
target.
    <bullet> In 1996, in response to a request by Forsyth County for 
its own water withdrawal permit, the Corps said ``no.'' The reason for 
this ``no'' was because the Corps was in the process of a 
``Comprehensive Study'' that was set for completion in September 30, 
1996. (Exhibit ``A'')
    <bullet> On March 28, 1997, then Director of the Georgia Department 
of Natural Resources, Harold Reheis, wrote the Corps recommending that 
the County and City of Cumming each be deemed ``current users'' under 
the 1992 MOA. (Exhibit ``B'')
    <bullet> On April 22, 1997, in conjunction with Mr. Reheis' 
request, Forsyth County again requested approval of an additional water 
supply withdrawal from Lake Lanier. (Exhibit ``C'') On May 12, 1997, 
Congressman Nathan Deal also made the same request on behalf of the 
County. The Corps' ``no'' came just a month later. (Exhibit ``D'') On 
May 28, 1997, the Corps responded that although Forsyth County may be 
an ``existing user'' as defined by the Memorandum of Agreement between 
Florida, Georgia and Alabama, the Corps still could not issue a 
withdrawal permit to Forsyth County because Forsyth County did not 
``withdraw directly'' from Lake Lanier. (Exhibit ``E'')
    <bullet> On December 23, 1999, the Georgia Department of Natural 
Resources issued separate water withdrawal permits to the City of 
Cumming and Forsyth County for water withdrawal from Lake Lanier. 
(Exhibit ``F'')
    <bullet> On November 23, 2003, I wrote Colonel Robert Keyser at the 
Corps of Engineers requesting permission to begin construction of a 
second water intake into Lake Lanier to overcome the pressing issues of 
(1) Inadequate Withdrawal Capacity, (2) Improving Water Quality 
Withdrawn From the Lake, and (3) Safeguarding Water System Security. I 
emphasized in my letter that the County was not seeking an additional 
water allocation, but was simply requesting approval by the Corps to 
construct a vitally needed water intake structure. (Exhibit ``G'')
    <bullet> On May 10, 2004, Colonel Keyser rejected my request 
stating that Forsyth County did not have a ``holdover water supply 
contract'' as anticipated by the 1992 MOA and therefore was not an 
``existing user'' of Lake Lanier. (Exhibit ``H'') Interestingly, the 
phrase ``hold over water supply contract'' is found nowhere in the 1992 
MOA, and the Corps' interpretation of the MOA is at odds with the MOA's 
expansive definition of those entities that are considered ``existing 
users'' of the lake.
    <bullet> Colonel Keyser also noted that an injunction entered into 
by the district court in Alabama, further bound his hands in 
cooperating with Forsyth County.
    <bullet> On March 25, 2005, the Corps tendered a ``Notice of 
Proposed Actions'' to the Alabama Federal District Court stating that 
Forsyth County's request for an easement into Lake Lanier could not be 
undertaken because ``approval would require a new withdrawal contact 
and is therefore enjoined.'' (Exhibit ``I'') The Corps' position is, 
again, wholly unsupported by the 1992 MOA.
    <bullet> On April 11, 2005, I attended a meeting with Congressman 
Nathan Deal and Corps' officials at the Congressman's request. At that 
meeting, I requested that the Corps consider granting an intake 
easement to the City of Cumming, with Forsyth County possibly funding 
the construction costs. Approximately 6 weeks later, in a telephone 
conversation with Colonel Taylor, I was advised that all ``holdover'' 
contracts had expired, including the contract between the Corps and the 
City of Cumming. Consequently, not even the City of Cumming could get a 
secondary intake easement.
    <bullet> On September 19, 2005 the injunction that served as the 
latest basis by the Corps for not cooperating with Forsyth County, was 
lifted. On September 23, 2005, I again wrote the Corps requesting 
simply an easement across Corps property for purposes of commencing 
construction of a water intake into Lake Lanier. My correspondence 
emphasized that Forsyth County was not seeking any additional 
withdrawals, but merely needed to get started on this multi-year 
project to ensure the health and safety of Forsyth County citizens. 
(Exhibit ``J'')
    <bullet> On October 13, 2005, Georgia's Senatorial delegation 
delivered correspondence to Deputy Assistant Secretary of the Army, 
John Woodley, clarifying their understanding that the Corps would get 
to work on the various requests of Gwinnett, Cherokee and Forsyth 
counties. (Exhibit ``K'') Secretary Woodley responded on January 30, 
2006 that he did intend to begin taking all necessary federal action. 
(Exhibit ``L'')
    <bullet> On February 1, 2006, I again delivered correspondence to 
the Corps requesting that the Corps immediately ``make good'' on its 
commitment to begin taking action on Forsyth County's request for an 
easement. (Exhibit ``M'')
    <bullet> In telephone conversations following that letter, Corps 
officials declared that in spite of the assurances provided to our 
Senatorial delegation, the Corps refused to grant Forsyth County an 
easement because the County did not have a ``hold over'' storage 
contract.
    <bullet> In spring 2006, the Corps advised Forsyth County that the 
City of Cumming should make a request for an intake easement, and that 
the City and County could then enter into an intergovernmental 
agreement for purposes of construction, operation, maintenance and 
distribution of water. When asked whether the Corps would place its 
proposal in ``writing,'' the Corps advised that they would not.
    <bullet> The latest word from the Corps on why Forsyth County's 
vital water interests cannot be addressed is because, once again, the 
Comprehensive Study of the ACT/ACF is ongoing.
    <bullet> Exhibits ``N'' and ``O'' are copies of Forsyth County's 
formal requests to the Corps of Engineers for an independent water 
withdrawal.
    Here we are, some 10 years after the Corps used the ``Comprehensive 
Study'' as a basis for denying Forsyth County relief, it is again 
serving as a basis for denial. The Corps' rationale for denying Forsyth 
County relief has come full circle.
    The U.S. Army Corps of Engineers has seemingly gone out of its way 
to deny Forsyth County its own water allocation, an easement across 
Corps property for a redundant intake, and even refused to provide 
written confirmation that a request by the City of Cumming for an 
intake easement would be granted.
    I believe that commitments made to our Senatorial delegation have 
not been honored, and that the Corps has placed the water needs of 
Florida and Alabama over the needs of Georgia citizens.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Statement of Kit Dunlap, President/CEO, Greater Hall 
                          Chamber of Commerce
    Members of the committee, thank you for giving me the opportunity 
to discuss some of the water issues that we're dealing with here in 
North Georgia. As you may know, I'm here today wearing two hats. I 
currently serve as President and CEO of the Greater Hall Chamber of 
Commerce and have a strong interest in the economic issues associated 
with Lake Lanier and the entire ACF Basin. I'm also here today as 
Chairman of the Metropolitan North Georgia Water Planning District 
which is a 16-county water planning agency that was created by the 
General Assembly five years ago to develop regional water plans.
    My comments today will focus on three areas: (1) the economic 
impacts of Lake Lanier and the ACF Basin, (2) the critical importance 
of the ACF Basin and the role of regional water planning, and (3) the 
Impact of Water Supply on River Flows on the Apalachicola River.
         the economic impact of lake lanier and the acf system
    The economic impact of Lake Lanier is over $5 billion annually as 
shown in the 2001 study by the Marine Trade Association of Metro 
Atlanta. Recreation is a predominant part of this figure. Lake Lanier 
is the most visited Corps of Engineers lake in the Southeastern United 
States with a variety of tourism and recreation activities.
    More broadly, the portion of the ACF basin within the metropolitan 
Atlanta area accounts for over two-thirds of the basin population and 
nearly half of the population of the State of Georgia. It generates a 
significant majority of the total personal income in the ACF basin and 
roughly one-half of the personal income of the State.
    Any action that would harm the economy of metropolitan Atlanta 
would reduce the per capita wealth and income of the ACF basin and the 
State as a whole.
                  the role of regional water planning
    With a finite water supply and a population of over four million 
and growing, the need to carefully and cooperatively manage and protect 
metropolitan Atlanta's rivers and streams has become a priority. In 
September 2003, the District adopted three long-term water management 
plans. Of these, the Water Supply and Water Conservation Management 
Plan (Plan), calls for a future of intensive water demand management 
and an aggressive water conservation program.
    When I was asked to serve as chairman of the District, many of my 
colleagues in Hall County questioned my decision to go down to Atlanta 
to talk about water. Yet it was important for all players--every 
county, every basin--to be at the table.
    There were certainly differences of opinion during the planning 
process, but the plans were created and all 16 counties and 95 cities 
in the District are moving to put the plans into action. We are in a 
sense ``regulating ourselves'' and working toward the same water 
protection goals.
    We learned a lot from our first planning process and are pleased to 
see water resources planning gaining precedence at the state level as 
well. We applaud Georgia EPD's efforts on the new State Water Plan and 
the District is pleased to be participating in the state planning 
process.
    We also certainly realize that other parts of the state have 
different water needs and interests. We want to continue to work with 
our upstream and downstream neighbors and further our outreach efforts 
beyond the District's borders.
    With regard to the ACF basin specifically, the District has made 
great strides towards meeting the Plan's water conservation goals. 
Currently, over 85 percent of the District's population is billed with 
a conservation pricing structure. The District has also trained local 
governments in water system leak reduction and repair, conducting 
commercial and residential water audits. Over 9,000 household water 
assessment brochures have been distributed since the spring of 2006. 
The District's educational program consists of commercials for 
television and radio, a television special, billboards, public 
workshops, essay contests and a variety of educational material such as 
brochures. In 2005, over 600 commercials were aired, 42 workshops were 
held with an average of 30-40 participants and over 1,000 middle school 
students participated in a water conservation and quality essay 
contest.
    Aggressive water conservation is critical to the region's future. 
The District will continue to work with and support implementation of 
the Plan's water conservation measures. The District is working with 
local governments to implement new programs such as retrofit programs 
for old, inefficient fixtures and pre-rinse spray valves.
          the impact of water supply on the apalachicola river
    The total net diversion from the ACF Basin for water supply for the 
Atlanta metropolitan area ranges between 250 and 300 cubic feet per 
second (cfs). This is the average daily net diversion from the ACF 
Basin for all counties within the Metropolitan North Georgia Water 
Planning District. Most of this water is taken from Lake Lanier. A 
small amount comes from the Flint River.
    To put this figure in comparison, agricultural withdrawals in South 
Georgia have a much larger impact on the surface water resources in the 
Flint River Basin. According to testimony recently offered by the U.S. 
Army Corps of Engineers, this impact is estimated to be between 600 and 
700 cfs during the summer months.
    Because there are no large reservoirs in the Flint River, 
withdrawals from this part of the basin have a ``real time'' impact on 
stream flow. Agricultural demands are highest during the summer, when 
stream flows are lowest. Therefore such demands have a disproportionate 
impact on stream flow.
    Evaporation also has a significant impact. According to the recent 
testimony of the Corps official, the impact from evaporation from all 
of the Corps reservoirs on the Chattahoochee River totals approximately 
200 cfs a day.
                               conclusion
    As we have all gathered in this room today, we all need to be 
prepared to come to the table and actively seek solutions to water 
supply limitations.
    All of our various interests do not need to be fighting each other. 
We need to be working together (metro Atlanta, Lake Lanier Association, 
other advocacy groups, the Corps of Engineers, the U.S. Fish and 
Wildlife Service and average citizens) to conserve and clean up the 
water we share.
    Since the District's plans were adopted in late 2003, the momentum 
to protect water resources in metropolitan north Georgia has continued 
to build. The District and its local partners are beginning to see 
results as local communities expand their efforts to conserve water, 
safeguard public health and protect rivers and streams.
    Thank you for your attention, I'll be happy to answer any 
additional questions of the committee.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Statement of Jackie Joseph, President, The Lake Lanier Association, 
                                  Inc.
                                Contents
                        association introduction
                          lake lanier resource
                           clean water issues
                            full lake issues
                                summary
                        Lake Lanier Association
                              introduction
                                mission
    Dedicated to a Clean and Full Lake Lanier to Enhance its Economic 
Value to Georgia
Established in 1966
    4,000 Members (1,700 Memberships) Homeowners, Businesses, Water 
Users, Dock Owners, Recreation Users
Active Board of Directors
    Many Solid Programs._Shore Sweep (Lake Clean up); Adopt a Lake 
(Lake Monitoring); Advocacy
                           lake lanier facts
    Finest Natural Resource in Georgia
    Created 1958-1960
    39,000 Acres of Water
    640 Miles of Shoreline
    8,500 Private Docks
    10,000 Boats at 10 Marinas
    8 Million Annual Visitors
    Drinking Water for 4+Million Georgians
    $5 Billion Annual Economic Contribution
    66 percent of the ACF Water Storage
    5-7 percent of the ACF Watershed
                   issues ``keeping the lake clean''
    Municipalities Calling for Sewage Discharges Into Lanier (MNGWPD 
Calls for 200+ MGD in 2025)
    Georgia Courts Have Supported the LLA and Denied EPD Sewage 
Discharge Permits
    Sewage Discharges are Necessary for Sustained Georgia Growth. 
However the Sewage Discharge Must be as Clean as Possible Through 
Treatment Processes
    Gwinnett County has Agreed with the LLA to Make Their Discharge 
Very Clean and Deep (Keeps Pollution at the Bottom)
    Georgia EPD has not Issued the Gwinnett Permit that was Applied for 
in the summer of 2005
                 suggestions for keeping the lake clean
    EPD Should Issue the Gwinnett Sewage Discharge Permit
    EPD Should Direct that all Future Lake Lanier Sewage Discharges 
Must be at Least as Clean and Deep as the Gwinnett Permit Request
    Georgia Should Insure that the ``Water Management Plan'' 
Specifically Addresses Cleanliness of Sewage Discharges and Reuse 
Strategies Which Have not Been Discussed in the Basin Advisory 
Committee Meetings
                      issue: keeping the lake full
    The ACF Must be Managed as a System in a Prudent Manner
    Low Lake Levels are Very Dangerous to Boaters, Swimmers and the 
Economy
    Reservoirs are Significant Investments, and Should be Managed 
Accordingly
    A Balance Between Endangered Species and Human Requirements Must be 
Effected. The Loudest Voice Should not Always Prevail
    Water Flows at the Florida Line for Mussels and Sturgeon Should not 
be Artifically Inflated to a Level Greater than the Natural Water 
Flows, Without Reservoirs, Unless Excess Water Flow Capability Exists
    Economic Value of Water Must be Evaluated Before Release Decisions 
are Implemented. Economic Impact of Lake Lanier is in Excess of $5 
Billion Annually as Determined by a Study Done by the Marine Trade 
Association of Metro Atlanta. (Example: Lake Lanier Contribution to 
Georgia Versus a Very Small Oyster Industry in Florida)
                   suggestions keeping the lake full
    Establish a Fair Level of Support for the Endangered Species, But 
not to the Detriment of Drinking Water and Safety. Mussels Should not 
Trump People
    Implement Solid Reinforced Management of the ACF System, Rather 
than Over Reacting to Specific Requests
    Pre Validate All Water Release Decisions with Onsite Visual 
Inspections
    Set a Lower Limit for Lake Lanier (Example 1060) and do not go 
Below that Minimum.
    Consider Raising Full Pool at Lanier to 1073 FT. This Would be 
Like Adding a 25 Billion Gallon Reservoir to the System.
    Consider Closer Management of the Flint River, Particularly the 
Withdrawal and Permitting Process
                                summary
    Lake Lanier is the Most Valuable Natural Resource in Georgia.
    Lanier Must be Kept Clean and Full for the Economic Vitality and 
Growth of Georgia
    Prudent Management of the System is Essential for the Success of 
Georgia's Objectives
    Note: [Lake Lanier Community Magazine, Volume 1, Issue 1; August/
September 2006 is retained in committee's file.]



             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
